<html>
<title> - OVERSIGHT OF MISSILE DEFENSE (PART 3): QUESTIONS FOR THE MISSILE DEFENSE AGENCY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   OVERSIGHT OF MISSILE DEFENSE (PART 3): QUESTIONS FOR THE MISSILE 
                             DEFENSE AGENCY 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 30, 2008

                               __________

                           Serial No. 110-150

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

48-813 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





























              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 30, 2008...................................     1
Statement of:
    Coyle, Philip E., III, senior advisor, Center for Defense 
      Information, associate director emeritus, Lawrence 
      Livermore National Laboratory; Henry F. Cooper, Ph.D., 
      chairman, High Frontier; and Joseph Cirincione, president, 
      Ploughshares Fund..........................................   150
        Cirincione, Joseph.......................................   192
        Cooper, Henry F..........................................   181
        Coyle, Philip E., III....................................   150
    Obering, Lieutenant General Henry A. ``Trey'', III, USAF 
      Director, Missile Defense Agency, Office of the Secretary 
      of Defense.................................................    79
Letters, statements, etc., submitted for the record by:
    Cirincione, Joseph, president, Ploughshares Fund, prepared 
      statement of...............................................   194
    Cooper, Henry F., Ph.D., chairman, High Frontier, prepared 
      statement of...............................................   184
    Coyle, Philip E., III, senior advisor, Center for Defense 
      Information, associate director emeritus, Lawrence 
      Livermore National Laboratory, prepared statement of.......   152
    Obering, Lieutenant General Henry A. ``Trey'', III, USAF 
      Director, Missile Defense Agency, Office of the Secretary 
      of Defense, prepared statement of..........................    83
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Information concerning U.S. missile defense program......    13
        Prepared statement of....................................     9
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     4


   OVERSIGHT OF MISSILE DEFENSE (PART 3): QUESTIONS FOR THE MISSILE 
                             DEFENSE AGENCY

                              ----------                              


                       WEDNESDAY, APRIL 30, 2008

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:08 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, McCollum, Van Hollen, 
Hodes, Welch, and Shays.
    Staff present: Dave Turk, staff director; Dan Himilton, 
fellow; Davis Hake, clerk; Hank Smith, graduate intern; 
Christopher Bright, Benjamin Chance, and Todd Greenwood, 
minority professional staff members; and Nick Palarino, 
minority senior investigator and policy advisor.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs hearing entitled, 
``Oversight of Missile Defense (Part 3): Questions for the 
Missile Defense Agency,'' will come to order.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all of the members of the 
subcommittee be allowed to submit a written statement for the 
record. Without objection, so ordered.
    Good morning, and welcome to everybody that is here, 
particularly our witnesses. Today's oversight hearing is the 
third in our series on the Nation's missile defense program. As 
I have noted before, the National Security Oversight Committee 
is undertaking this extensive and sustained oversight of 
missile defense for three primary reasons.
    First, the Missile Defense Agency operates the largest 
research development program in the Department of Defense, 
consisting currently of about $10 billion or more a year. Since 
the 1980's taxpayers have already spent $120 to $150 billion, 
more time and more money than we spent on the Manhattan Project 
or Apollo Program, with no end in sight.
    Second, the broader history of missile defense efforts 
teaches us important lessons. The nonpartisan Congressional 
Research Service put it this way, ``efforts to counter 
ballistic missiles have been underway since the dawn of the 
missile age at the close of World War II. Numerous programs 
were begun, and only a very few saw completion to deployment. 
Technical obstacles have proven to be tenacious, and systems 
integration challenges have been more the norm, rather than the 
exception.''
    Third, the excellent analysis and work of those who 
testified at our previous two hearings and others like them 
have raised very serious concerns about the effectiveness, 
efficiency and even the need for our country's current missile 
defense efforts.
    Today we will continue those conversations with the head of 
the Missile Defense Agency, General Obering. I want to thank 
you, General, for your service to the country and for your 
testimony here today.
    For your benefit and for others who weren't able to attend 
the other hearings, I wanted to provide a short recap of what 
we have learned and what serious questions have been raised.
    Our first hearing focused on the threats facing our country 
from intercontinental ballistic missiles versus other 
vulnerabilities we face, a discussion which should form the 
foundation for any wise policymaking, but which too often gets 
ignored, distorted or manipulated.
    Joseph Cirincione testified, ``the threat the United States 
faces from ballistic missiles has steadily declined over the 
past 20 years. There are fewer missiles in the world today than 
there were 20 years ago, fewer states with missile programs, 
and fewer hostile missiles aimed at the United States. 
Countries still pursuing long-range missile programs are fewer 
in number and less technologically advanced than 20 years ago. 
Mr. Cirincione also dissected the threat our troops and allies 
face from short and medium-range missiles versus the threat or 
lack thereof the U.S. homeland faces from long-range missiles.
    Dr. Stephen Flynn, currently a fellow at the Council on 
Foreign Relations and formerly the director and principal 
author of the Hart-Rudman Commission report, testified that the 
``non-missile risk . . . is far greater than the ballistic 
missile threat'' because ``it is the only realistic option for 
a non-state actor like al Qaeda to pursue;'' it provides 
anonymity, something a ballistic missile simply cannot; and 
there are a rich menu of non-missile options to exploit for 
getting a nuclear weapon into the United States,'' options 
which could have the additional bonus from the al Qaeda 
perspective of generating ``cascading economic consequences by 
disrupting global supply chains.''
    This comparative threat assessment is nothing new. In fact, 
in 2000 the CIA itself came to the same conclusion, ``U.S. 
territory is probably more likely to be attacked with weapons 
of mass destruction from non-missile delivery means (most 
likely from non-state entities) than by missiles.''
    Dr. Flynn concluded the hearing by basically begging us to 
use any crumbs that could be taken from the billions of dollars 
we lavish on our ICBM missile defense efforts to plug existing 
and dangerously urgent homeland security vulnerabilities.
    Our second hearing tackled head-on the question of what are 
the prospects of our current missile defense efforts and what 
are the costs. One of the most eminent physicists our country 
has ever produced, Dr. Richard Garwin, the 2003 recipient of 
the National Medal of Science from President Bush, testified, 
``Should a state be so misguided as to attempt to deliver 
nuclear weapons by ICBM, they could be guaranteed against 
intercept in mid course by the use of appropriate 
countermeasures.''
    Philip Coyle, the longest-serving director ever of the 
Defense Department's testing and evaluation office testified, 
``Decoys and countermeasures are the Achilles Heel of missile 
defense. . . . From a target discrimination point of view, 
during the past 5 years the flight intercept tests have been 
simpler and less realistic than the tests in the first 5 years. 
None of the GMD flight intercept tests have included decoys or 
countermeasures during the past 5 years.--In the past 5 years, 
there have been just two successful GMD flight intercept tests. 
At this rate it would take the Missile Defense Agency 50 years 
before they could be ready for realistic operational testing.''
    Other witnesses referred to a recent report by the 
Government Accountability Office that concluded, ``GAO was 
unable to assess whether MDA met its overall performance goal 
because there have not been enough flight tests to provide a 
high confidence that the models and simulations accurately 
predict ballistic missile defense system performance. Moreover, 
the tests that have been done do not provide enough information 
for Department of Defense's independent test organization to 
fully assess the BMDS's suitability and effectiveness.''
    The Congressional Budget Office has estimated that assuming 
the Missile Defense Agency continues on its present course, the 
taxpayers will spend an additional $213 to $277 billion between 
now and 2025. I need to stress that this is in addition to the 
$150 billion that have already been spent.
    In a time of economic hardship, budget deficits and many 
pressing and expensive challenges, both foreign and domestic, 
we need to all ask ourselves, whether you are a conservative 
Republican or a liberal Democrat, are we wisely spending the 
taxpayers' money here, is there a real threat we are trying to 
guard against, and are we actually going to have something 
useful at the end of the day?
    That is why we are here today. Mr. Shays, I recognize you 
for 5 minutes.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Thank you, Mr. Tierney, for scheduling this 
hearing today and continuing the subcommittee's oversight of 
efforts to defend our Nation. I am pleased that today we will 
hear from the key person at the Defense Department who is 
responsible for designing, developing, testing and deploying 
our country's missile defenses. Obviously General Obering's 
perspective is critical for this subcommittee to properly 
discharge its oversight function. I look forward to hearing 
General Obering's explanation of the threat this Nation faces.
    Earlier this year, another senior military leader testified 
before a House committee that, quote, the spread of nuclear, 
chemical and biologic weapons and the ballistic missiles to 
deliver them is one of the central security challenges 
confronting the United States and its allies. This echoed the 
assessment given a few weeks before by Thomas Fingar, the 
Deputy Director of National Intelligence. Dr. Fingar informed 
the House Armed Services Committee that, ``Iran continues to 
deploy ballistic missiles inherently capable of delivering 
nuclear weapons and to develop longer-range missiles.'' He 
acknowledged that North Korea possesses nuclear weapons and 
has, ``already sold ballistic missiles to several Middle East 
countries and to Iran.'' Dr. Fingar also observed that one type 
of North Korean missile, ``probably has the potential 
capability to deliver a nuclear weapon sized payload to the 
continental United States.''
    This then is the situation that intelligence and military 
experts believe the United States confronts now and in the 
future. It was in light of these dangers that the Congress 
approved the National Missile Defense Act of 1999 which 
established, ``the policy of the United States to deploy as 
soon as is technologically possible an effective national 
missile defense system capable of defending the United States 
against limited ballistic missile attacks.'' This is the law of 
the land.
    Last year the chairman of HASC, House subcommittee with 
responsibility for missile defenses, declared that there was 
always, there has always been partisan, bipartisan support for 
developing and deploying an effective missile defense system. 
Mrs. Tauscher made it clear that Members from both sides of the 
aisle, ``believed that effective missile defenses are an 
essential component of our country's overarching defense and 
national security strategy.'' Mrs. Tauscher's points were 
endorsed by the U.S. Congress and signed into law again 
recently.
    The National Defense Authorization Act for fiscal year 
2008, which was overwhelmingly approved by this House, clearly 
recognizes the threat of ballistic missile attacks and codifies 
support for an effective missile defense system. Thus, it is 
not surprising that 2 months ago the Secretary of Defense 
declared that past doubts about missile defenses have been 
resolved. ``The question of whether this capability exists has 
been settled.'' Secretary Gates said, but he also noted that, 
``the question is against what kind of threat, how large a 
threat, and how sophisticated a threat.''
    I am concerned that if this subcommittee overlooks the 
consensus for missile defenses and succeeds in delaying or 
curbing the program, we may regret this action. There was a 
time when missile defense critics said the system, ``could 
never hit a bullet with a bullet. The Missile Defense Agency 
has proved the skeptics wrong on this point. I suspect they 
will do so again on other aspects.''
    This notwithstanding, I believe our subcommittee has a 
vital, important role to play in overseeing the missile defense 
program. However, I believe we need to frame the debate 
differently. We should post queries such as, what is the proper 
mix of technologies available to us? Which systems perform 
better and are more cost effective than others? Are our 
international partners sufficiently engaged? Can factors which 
inhibit testing, such as target price and availability, be 
addressed in order to offer more meaningful exercises? Is there 
a way to better encourage sales of component systems to allies, 
thus bringing our production costs down while offering a 
measure of protection abroad?
    Over the past weeks in this hearing series, we have heard 
wildly varying assessments of the threat this Nation faces, the 
capability of our current missile defense system, and the 
testing regime to which it has been subjected. I am eager to 
hear from General Obering to learn the facts, and I am 
interested in hearing contrary views from our second panel.
    Mr. Chairman, again, I sincerely thank you again for 
holding these hearings.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, Mr. Shays. The subcommittee will 
now receive testimony from our first panel before us today, 
Lieutenant General Henry A. ``Trey'' Obering III. General 
Obering is the Director of the Missile Defense Agency in the 
Office of the Secretary of Defense and has held this position 
since July 2004. He entered the Air Force in 1973, receiving 
his pilot wings in 1975, flying F-4 Phantoms. Among other 
assignments, General Obering participated in 15 space shuttle 
launches as the NASA orbiter project engineer. He was 
responsible for integrating firing room launch operations. 
Prior to his assignment at MDA, General Obering served as the 
Mission Area Director for Information Dominance on the Air 
Staff.
    General, again, thank you for being with us today. We look 
forward to a frank and robust discussion. We do have a policy 
of the subcommittee to swear everybody in before they testify. 
So I ask you to please stand and raise your right hand.
    [Witness sworn.]
    Mr. Tierney. Thank you. Let the record reflect that the 
witness has answered in the affirmative.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. If I could just insert 
into the record two letters endorsing the current system from 
General Kevin Chilton and General Kevin Campbell, an MDA 
response to recent criticisms regarding the U.S. missile 
defense program; and finally, an independent report refuting 
the criticism lodged by Professor Ted Postal.
    Mr. Tierney. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. General, I do have to make some preliminary 
comments. One is that your full written statement will be in 
the record, and I know it's quite extensive.
    We have several issues going on here today. One is that Mr. 
Ahern from Ireland is over here talking. Some Members will want 
to come and go to that. So I want to move the hearing if we 
can. We have a second panel as well and votes coming in. So I 
want to give you your full 5 minutes for your opening statement 
and then go to questions.
    But I understand--I look at your statement, it's certainly 
longer than 5 minutes, and I understand you also want to show 
some slides or a video or whatever. So how you manage that and 
get it within the 5 minutes without making me look like an ogre 
for shutting you down will be appreciated because we will 
pretty much keep it to 5 minutes, maybe with a little bit of 
leeway. But it is up to you how you want to work on that. Then 
we'll let people ask questions and go from there.
    I appreciate that. And you are recognized.
    Mr. Shays. Mr. Chairman, could I make a request that he be 
given 10 minutes? This is the gentleman who is responsible for 
the entire program. It would seem to me that there's no logic 
to confining his testimony and letting us hear what he has to 
say.
    Mr. Tierney. Mr. Shays, we'll be as generous as we can 
within the confines. We have those issues that are around here 
this morning. Certainly it's the witness' choice to use video 
or to testify. He can use his time as he wants. General, you 
are recognized.

STATEMENT OF LIEUTENANT GENERAL HENRY A. ``TREY'' OBERING III, 
USAF DIRECTOR, MISSILE DEFENSE AGENCY, OFFICE OF THE SECRETARY 
                           OF DEFENSE

    General Obering. Good morning, Mr. Chairman, Representative 
Shays, and other distinguished members of the committee. As the 
Director of the Missile Defense Agency, it is my role to 
develop, test and initially field an integrated, layered 
ballistic missile defense system. And I want to emphasize the 
integrated and layered nature of these capabilities which our 
critics overlook and which I will expand upon later.
    I am happy to report that 2007 was the best year we ever 
had and it reflects the hard work of thousands of men and women 
across the country. This past year we've made progress in our 
fielding and testing and we've taken major steps to defend our 
homeland as well as our deployed forces and allies in the 
Pacific. With NATO's recent recognition of the merging missile 
threat by all of its member nations, its endorsement of our 
long-range defense proposals, and its tasking to propose 
options for shorter-range protection and integration, we will 
be able to defend our deployed forces and allies in that 
important theater as well.
    In addition, we have active cooperation efforts with 18 
nations worldwide. Our success to date has also affected our 
increasingly complex and realistic test program which we will 
continue to expand over the next several years. With the 10 of 
10 successful intercepts in 2007, we have now achieved 34 of 42 
successful hit to kill intercepts since 2001. We have not had a 
major system failure in our flight test program in over 3 
years.
    Two relatively recent milestones are worth highlighting. 
One was the success of our allied partner, Japan, in their 
first intercept flight test off the coast of Hawaii in 
December. And while it was not a test of our missile defense 
system, we were able to modify our sea-based element to destroy 
the errant satellite in February with just 6 weeks notice.
    Now I would like to address some of our critics' opinions. 
The fact is that many of our critics disagree with the policy 
choice that we ought to deploy strategic or tactical systems to 
counter the ballistic missile threat. They have other 
approaches, to include denying that the threat exists or using 
more destabilizing or destructive solutions.
    In pursuing missile defense even in a limited fashion, we 
are following a commonsense approach. To illustrate, let me 
quote a recently declassified draft Presidential memorandum, 
``a number of arguments for deployment of a less than perfect 
ballistic missile defense are most persuasive. A ballistic 
missile defense, even though of limited capability, could be 
very effective against a simple attack by a minor power, a 
small accidental attack, or a small attack constrained by arms 
control measures. Such a defense would contribute to the 
deterrence of blackmail threats and to the stability of arms 
control agreements. A ballistic missile defense of limited 
capability would contribute to the deterrence of large attacks 
by raising doubts of the attacker's ability to penetrate. Such 
a defense, even though limited, greatly complicates the design 
and tactics for offensive systems.''
    This memorandum was written 45 years ago on October 6, 
1962; the President was John F. Kennedy. Signs of similar 
logic, the Congress passed and the Clinton administration 
signed into law the National Missile Defense Act of 1999. What 
we've seen from our critics is an attack of the overall policy 
to deploying missile defense using technical arguments, stating 
originally that we can't do hit to kill or that we cannot be 
effective against countermeasures or that in the future we 
cannot make boost-phased defenses work. But the fact is that we 
can do hit to kill. We can be effective against countermeasures 
and we are making boost-phased defenses work. So we are taking 
these technical arguments off the table one at a time through a 
comprehensive test program.
    Our critics are also out of step with the mainstream. 
There's been bipartisan support by 11 Congresses, four 
Presidents, combatant commanders, a growing number of allies, 
including all NATO nations, not to mention the majority of the 
American people. Successive military commanders such as the 
head of U.S. Northern Command testified to Congress that our 
long-range defenses have made great strides and that the system 
is standing ready to defend the United States and its allied 
infrastructure and population centers. Indeed, for several 
years now a number of our combatant commanders have placed 
missile defense near the top of their needed capabilities list.
    Defying the predictions of critics who maintained for years 
that we could not hit a bullet with a bullet, we have now shown 
that we can successfully do so. In fact, we can show that we 
can hit very precisely, within centimeters of where we're 
aiming.
    Also contrary to what critics maintain, we are using 
realistic test criteria developed by the test community and the 
warfighter. The Director of Operational Test and Evaluation 
concurs that we've increased the operation and realism of all 
our testing, to include an end-to-end test of our long-range 
elements with operational assets.
    The critics claim that the threat is not realistic unless 
it has simple or advanced countermeasures. We take 
countermeasures seriously and we have tested against several 
versions in the past. Our flight tests will include more 
complex threat suites in the future as our development program 
produces new sensors, algorithms and Kill Vehicles. However, 
the fact remains that there that are hundreds of missiles 
deployed today that we do not believe carry countermeasures and 
we have been successful against these types of threats.
    What would our critics have us do, return this country and 
our forces to its previous state of complete vulnerability to 
missile attack? Missile defense must be considered within the 
entire balance of forces within the United States. It will 
complement our arms control and other dissuasive actions. It 
can bolster our defense capability. It can stabilize crisis 
situations, and when all else fails and a warhead is in the 
air, missile defense and only missile defense can save innocent 
lives.
    Now, sir, with your permission I do have a few charts if I 
could go to illustrate this point.
    Mr. Tierney. You still have time.
    General Obering. This is the integrated, layered system 
that I was talking about before. It comprises defenses in a 
boost phase, the mid-course phase of flight as well as the 
terminal phase. And we are building the integration and the 
engineering for these all to work together so the distinction 
between tactical and strategic blurs considerably supported by 
an entire family of sensors.
    Next slide, please. This is the deployment of the system 
today, to include radars as far forward as Japan, Aegis ships 
of which we've modified 17 through long-range tracking, 12 to 
be able to launch sea-based interceptors and a whole host of 
elements, to include more than 24 interceptors that we've 
placed between Alaska and California, radars that we've 
modified, as well as new radars that we've deployed across the 
globe as well as a modified radar in the United Kingdom to be 
able to protect initially from threats from Iran.
    Next slide. Now on our testing. If you go ahead and click 
on this first one very quickly. The first one--no, I'm sorry. 
Can you back up? The first one right here. OK. It's not in 
there? Go ahead to this last one then. I want to show just the 
last long-range testing we did in September. This was a test to 
emulate an attack. Go ahead and click on inside the frame 
there, please. To emulate an attack from North Korea into the 
United States. That's fine. It should start.
    The target was launched from Kodiak, AK. This was a three-
stage target emulating what we believed the North Koreans are 
capable of doing. This geometry was to emulate an attack from 
North Korea into Texas with an intercept from Alaska. We flew 
from Kodiak Island, AK down into the Pacific and we intercepted 
with an interceptor from Vandenberg, CA. Here is a target 
camera looking aft on the target. The next you are going to see 
the interceptor flight leaving the silo in California. Now, I 
remind you that this was done by soldiers on the console 
operational hardware and software, operational interceptor, and 
the configuration that we have deployed to our interceptor 
silos in Alaska and California.
    Again, the next you'll see is the silo being--the silo 
interceptor being launched from Vandenberg. We have a clamshell 
protection over the silos. This is a long-range shot from 
there. Here are the clamshell doors opening and the egress of 
the interceptor. Now this is our largest interceptor. It's 
about 60 feet long, three stages. It is capable of defending 
from either the East or the West. So we can use these 
interceptors to protect from both North Korea as well as Iran.
    This is a three-stage version, as I said. We are proposing 
a two-stage, which we will remove the third stage for Europe. 
Here's the separation of the first stage, and you fly up. And 
the next shot you are going to see are some of the intercept 
scenes. This intercept occurred several hundred kilometers in 
space. So the first is an IR image that you'll see of the 
intercept. We know that we destroy about 50 percent of the 
warhead immediately, about 40 percent burns up in re-entry, and 
only about 10 percent debris hits the ground. This is just at 
30 percent speed.
    The final frame, you will see three boxes come up here and 
this is exactly what the Kill Vehicle sees. What you'll be able 
to see is that it's tracking multiple objects in those boxes 
with the three sensors. There's a little box that comes up. In 
every one of the boxes that you see here are objects that are 
in the focal plane of the Kill Vehicle. It's having to go 
through and determine what is a warhead, what is the third 
stage, what is debris that is in that field of view? In these 
two frames, you will see it selects the warhead just before we 
hit.
    Sir, that's all I have. I just wanted to use that to 
illustrate I think the tremendous progress that we've made in 
our program.
    [The prepared statement of General Obering follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you very much, General.
    We're going to proceed to questioning and a 5-minute rule 
on that basis, but I suspect that we'll have more than one 
round if Members wish.
    General, I have a lot to go through here. So I want to 
start and sort of do it systematically if we can and go back to 
some of it. We talked a little bit about the threat that the 
country faces today and a number of people at the Defense 
Department point out that over two dozen countries currently 
have ballistic missiles. I know Vice President Cheney likes to 
say there are 27. But I want to break that down a little bit. 
Because as I said to you yesterday, we want to make some 
distinctions here between short-range, middle and medium-range, 
and long-range. We're really focusing on the GMD here. And 
that's what we're talking about.
    So of the 27 or so countries that currently have ballistic 
missiles, how many only have short-range capability? And that 
is 300 kilometers or less.
    General Obering. Well, sir, first of all if we are going to 
address the $120 billion or $115 billion that--I want to remind 
the committee that is the entire program. So that includes----
    Mr. Tierney. I understand. And I think you broke it down in 
your written testimony to $64 billion or so in the mid-course 
or whatever. And that is on the record, and I appreciate that.
    General Obering. Yes, sir.
    Mr. Tierney. I'm not trying to get into a debate with you. 
I just wanted to focus on the question, of the 27 countries 
that the Vice President likes to refer, how many of those only 
have short-range capability?
    General Obering. The majority of those have short-range 
capability. There's two nations that are of very much concern. 
That is Iran and North Korea because they've been able to take 
the shorter-range SCUD technology and they've been able to grow 
that into longer and longer ranges. And so North Korea, in 
particular, was able to launch a long-range weapon in the 
summer of 1998 which, by the way, the intelligence experts did 
not believe was going to happen for 8 to 10 years. So the 
majority of those are short range and short to medium range to 
intermediate range. So we do know they're growing those 
capabilities.
    Mr. Tierney. When you say North Korea has the capability of 
a missile, you are not trying to lead people to believe that 
they've tested it thoroughly and that every aspect of it and 
every component of it has been tested any particular number of 
times to show effectiveness, are you?
    General Obering. Sir, as a very robust development and test 
program in those countries that I mentioned. In fact just this 
year, for example, Iran fired a 2,000-kilometer missile in 
November. They again attempted a space launch vehicle in 
February. And as I stated, North Korea----
    Mr. Tierney. You are conflating again. So I want to stick 
to one topic at a time if we can. And I think that's--I don't 
want to be sarcastic with you or anything, but I think there's 
been a tendency for some people to just conflate a lot of 
different issues.
    General Obering. Sir, I'm not trying to----
    Mr. Tierney. I appreciate that. But I want to ensure we 
don't. I don't want to conflate long with middle with short. I 
don't want to conflate North Korea with Iran and 27 other 
countries. I want to focus down here if we can. Let me just ask 
the questions if I might and try to focus your answers on those 
specific questions. Likely you are talking about North Korea 
and Iran outside of France and Great Britain and China and 
Russia.
    General Obering. China and Russia, right.
    Mr. Tierney. We then don't have a concern that they're 
going to start lobbing missiles at us any sometime soon, China, 
Russia, France or Great Britain. The system you have designed 
is not focused on them, it is not directed at them, right?
    General Obering. Right.
    Mr. Tierney. So the system that you are talking about now 
would be the prospect of somebody might have 5,500 kilometers, 
or 3,500 miles capacity in a missile. You think at some point 
in time North Korea or Iran might get to that point?
    General Obering. Actually, yes, sir. And also when you 
start getting above 3,000 to 3,500 kilometers you now start to 
get in capabilities where you need the long-range defenses that 
we've produced.
    Mr. Tierney. I get mixed up with kilometers and miles here. 
So it's 5,500 kilometers, 3,500 miles roughly equivalent.
    General Obering. No, sir. About 3,500 kilometers--about 
3,500 kilometers or greater, you start getting into the long-
range capabilities that you need.
    Mr. Tierney. OK. We've had assessments from the 
Congressional Research Service and a lot of them saying that 
any number of intelligence estimates or studies have predicted 
that there would be more than five nations that have 
accomplished this capability in the next 40--at various times 
in the last 40 to 50 years. But that number hasn't really 
increased. You've got two, North Korea and Iran, and other than 
that it really hasn't increased beyond what was there quite a 
while ago.
    General Obering. Yes, sir. Again the facts are that those 
predictions oftentimes are not very accurate. You have to look 
at what is the sharing, the collaboration that's going on. And 
that's what makes it difficult to try to judge those.
    Mr. Tierney. The other question we have, if Iran had the 
capability, if they had it, and which they currently don't, 
we'd know exactly where that missile was coming from, wouldn't 
we?
    General Obering. Well, sir, obviously it depends. It 
depends on whether or not--if it was fired from within their 
country, we would know the launch location of the missile. 
That's true.
    Mr. Tierney. But we're not purporting that they have the 
capacity to launch it somewhere other than a country on an 
intercontinental ballistic missile, are we?
    General Obering. Well, one of the videos that I thought the 
folks loaded but they didn't, shows the fact that we can 
shoot--we actually launch shorter-range missiles off of our 
ships in our test beds.
    Mr. Tierney. Again we're talking about intercontinental 
ballistic missiles.
    General Obering. I am talking about short range.
    Mr. Tierney. I'm talking about intercontinental ballistic 
missiles. You are not purporting to tell me that Iran is 
setting them off from anywhere other than their own soil.
    General Obering. Yes, sir.
    Mr. Tierney. So that would be the case, if they sent one 
off purposely or whatever, they could expect to have some 
pretty severe retaliation.
    General Obering. Yes, sir. And of course the warhead would 
land on our soil without missile defense that we would do 
nothing about. So we would have to apologize----
    Mr. Tierney. What I'm talking about, General, obviously is, 
you know, you would have to think that somebody would be that 
crazed to send over something like that. Now Iran, last time I 
checked, is a country with a government, an elected government. 
They have roads. They have bridges. They have buildings. They 
have business. They're a functioning society over there. And 
you would have to make a leap of faith to believe that they 
would purposefully send off a missile, knowing there was going 
to be severe retaliation. That's the point that I make.
    General Obering. May I, sir, address that?
    Mr. Tierney. Sure.
    General Obering. No. 1, just the possession of a long-range 
weapon would allow coercion of our allies or coercion of the 
United States to allow them to operate under a nuclear umbrella 
that I think would change dramatically the geopolitical 
situation in the world and would have severe policy 
consequences on the United States and our ability for 
unrestricted movement.
    We saw what happened in Iraq where you had just the hostage 
taking of a number of individuals change the national policy of 
one of our allies. If you had a country that could hold entire 
cities at risk in Europe or other nations, what would that do 
to be able to coerce us? If I could get to your point directly.
    Mr. Tierney. I wish you would.
    General Obering. What happens if they do not exercise 
control of those weapons? And we cannot guarantee that. So what 
happens if you have the equivalent of a nation state suicide 
bomber that wants to make a blow for their cause? And they 
don't care----
    Mr. Tierney. Russia and China?
    General Obering. I'm talking----
    Mr. Tierney. France?
    General Obering. I'm talking about Iran right now.
    Mr. Tierney. In the case you are talking about, that could 
happen anywhere, whether it's Pakistan, Russia, China, France.
    General Obering. Yes, sir. Which is even--which is even 
more----
    Mr. Tierney. But the system you are building is only 
focused on Iran and North Korea?
    General Obering. Actually the system that we are fielding 
is focused on Iran and North Korea for very good reason. Those 
are the two nations that have made very aggressive statements 
about their intent as well as the capabilities that they're 
backing that up within their program.
    Mr. Tierney. So I guess your case is that you think that if 
they had the capacity, ever eventually got the capacity to 
throw a missile up there, that you think the threat to do so, 
knowing that there would be severe retaliation, would be 
effective enough to change U.S. policy?
    General Obering. I believe it could be effective enough to 
change ally policies. I think it would have severe consequences 
for our dealings in the alliance. And I think that's something 
that when we can close off that vulnerability, why wouldn't we?
    Mr. Tierney. Well, I guess you would have to factor in a 
lot of other things in a cost-benefit analysis. We'll probably 
talk about that later, how many billions and hundreds of 
billions of dollars you want to get to that prospect at some 
point with all those factors thrown in.
    We've had witnesses come in here, in fact, going back 
before that, back in 2000, the CIA's point person on missile 
threats, Robert Walpole, testified to Congress that in fact we 
projected in coming years U.S. territory is probably more 
likely to be attacked with weapons of mass destruction from 
nonmissile delivery means, most likely from nonstate entities, 
than by missiles, primarily because nonmissile delivery means 
are less costly and more reliable and accurate. They can also 
be used without attribution.
    The National Intelligence Council report in 2000 entitled, 
``Global Trends 2015,'' reiterated that point. Other means to 
deliver weapons of mass destruction against the United States 
will emerge, some cheaper and more reliable and accurate than 
early generation ICBMs. The likelihood of an attack by these 
means is greater than that of a weapons of mass destruction 
attack with an ICBM.
    Do you disagree with that, General?
    General Obering. Well, sir, first of all those are dated 
assessments. So I would recommend that you might get an updated 
assessment from the CIA and the DIA.
    Mr. Tierney. I've had them, General. I serve on the 
Intelligence Committee as well. So having them, I still give 
you, this is the most recent written public assessments since 
2001. And I notice that there has been no national intelligence 
assessment with respect to overall threats and prioritizing 
them and identifying them. And I have my own feeling that 
there's a reason for that, knowing what I know from the 
Intelligence Committee and what is real and what is not. We'll 
have to save that for another day because it's only insinuation 
at this point. But with respect to those two statements, do you 
disagree with that?
    General Obering. Sir, I don't disagree. What I would say is 
that we have to be prepared for both of the alternatives in 
terms of either a ballistic missile attack from a medium or 
long-range missile from a ship or from a smuggled nuke into a 
port. We can't pick and choose that. I think that the 
significant lesson from 9/11 was not how we were attacked. It 
was the fact that they expressed and acted on a will to attack. 
So the means by which that happens we have to be prepared for. 
So as soon as we say that we're not going to develop a long-
range missile defense for this country, we are inviting that 
avenue of attack for our future adversaries.
    Mr. Tierney. So you are an advocate of not making any 
priorities and not making distinctions and just spend every 
dollar we have on defense for every possible contingency you 
might have without deciding which one is more realistic than 
others?
    General Obering. Sir, what I would say is this, if you look 
at what we're spending on missile defense for the entire 
program, not just our long range, the entire program, it's less 
than 2 percent of our defense budget, less than 2 percent.
    Mr. Tierney. It's about $150 billion to date with another 
anticipated over $200 billion going forward. And we'll talk 
about effectiveness and other things later. But my time has 
expired.
    And nobody being on Mr. Shays' side, Ms. McCollum, you are 
recognized for 5 minutes. I'm sorry. Mr. Van Hollen is 
recognized. I didn't see him over there.
    Mr. Van Hollen. No. That's OK.
    Mr. Tierney. You are recognized for 5 minutes, Mr. Van 
Hollen. You're not ready. Ms. McCollum, you are recognized 
after all.
    Ms. McCollum. Thank you, Mr. Chairman. Well, I am ready.
    After the expert testimony from the first two hearings, I 
believe it would make more sense to move the Missile Defense 
Agency to the White House Office of Faith-based Initiatives.
    It's hard to believe and it's impossible for me to explain 
to my constituents why we're spending $10 billion every year on 
a cold war program that's based on a series of very 
questionable assumptions. In general, just from the last bit of 
the conversation that was going between you and the chairman, I 
would have to ask you, do you have any real fears that al 
Qaeda, who is our No. 1 enemy, would ever be able to build or 
launch a nuclear-tipped missile at the United States?
    General Obering. Ma'am, you put your finger on a very 
important concern, and that is, while the number of countries 
that have grown since----
    Ms. McCollum. I asked you about al Qaeda.
    General Obering. I'm getting to that, ma'am.
    Ms. McCollum. I only have 5 minutes. I asked you, do you 
have a fear that al Qaeda could be in possession----
    General Obering. I have fear that as the access to these 
weapons have grown because of the lack of missile defenses, I 
do believe that organizations like al Qaeda have a likelihood 
of getting their hands on them and being able to launch these 
weapons.
    Ms. McCollum. In the near future?
    General Obering. We've already seen states pass missiles to 
nonstate actors in the Middle East. We've seen Iran and Syria 
handing over short-range missiles to----
    Ms. McCollum. Our allies are the ones who possess the 
technology. Do you think al Qaeda's going to get this from our 
allies. Syria doesn't have--does Syria have this capability of 
giving this to al Qaeda?
    General Obering. North Korea has the technology. The 
experts agree, there was an article in the Washington Post just 
this year.
    Ms. McCollum. General, I am going to move on because you 
and I disagree on this. I don't think al Qaeda has immediate 
capability on this.
    Are there cheaper ways to strike the United States with 
weapons of mass destruction than long-range missiles? Yes or 
no.
    General Obering. Well, ma'am, first of all, I think that it 
depends on a number of different factors. No. 1, would it be 
cheaper or easier? I'm not an expert in smuggling in weapons of 
mass destruction. What I can say is it was very cheap, 
relatively speaking, for us to launch a target off of a ship 
off the coast of Hawaii.
    Ms. McCollum. Sir, I asked you a question. This is hard for 
me to do this. I want you to know, we were stationed at Wright 
Patterson when my sister is born. This is with the utmost 
respect, but I only have 5 minutes. OK?
    Are there cheaper ways to strike the United States with 
weapons of mass destruction than with long-range missiles?
    General Obering. Ma'am, I'm not an expert other than the 
missile threat. So I can talk about the missile defenses to 
those threats.
    Ms. McCollum. So you are not aware that there are any more 
reliable or accurate ways at all than long-range missiles to 
attack the United States?
    General Obering. I do know that by launching a missile from 
the coast you control everything up to the launch of that 
missile----
    Ms. McCollum. Mr. Chairman, I'm going to focus then on cost 
in the next round when I can go into it serving on the 
Appropriations Committee. Thank you for trying to answer my 
questions, General, for your attempt.
    General Obering. Yes, ma'am.
    Mr. Tierney. Thank you. Mr. Van Hollen, do you want Mr. 
Welch to go? We're trying to accommodate your schedule. Mr. 
Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you. General, first of all, it's your job 
to obviously develop this. You've been assigned to do that, and 
you're doing the best you can. And I happen to have major 
reservations about the effectiveness of it. But Congress has 
approved it. So I think we bear a lot of the responsibility for 
this policy. But on this question of the threat, we don't have 
infinite resources. And it is possible to conceive of an 
infinite number of threats to our national security, and 
decisions have to be made about the deployment of limited 
resources to protect us. Would you acknowledge that there's a 
significant tactical use of asymmetric warfare-type tactics by 
adversaries of the United States that we're seeing throughout--
in the whole war on terror?
    General Obering. Yes, sir.
    Mr. Welch. And wouldn't it be the case, as some witnesses 
have testified, that there is a serious threat that somebody 
may try to bring a nuclear device into this country on a ship 
or across a border and then detonate that device here in the 
homeland?
    General Obering. Yes, sir.
    Mr. Welch. And would you be in agreement that it would be 
important for us in terms of addressing that threat that we 
have a focus on some of the vulnerabilities at our ports and 
along our borders?
    General Obering. Oh, yes, sir.
    Mr. Welch. Do you have an opinion as to whether the threat 
of that type of means of delivery is greater than the threat 
posed by a long-range ballistic missile delivery system?
    General Obering. I do have an opinion. Yes, sir.
    Mr. Welch. And what's that?
    General Obering. I do believe that from our own experience, 
being able to launch a weapon from a ship into the United 
States in which you controlled everything up until the launch 
of that weapon and not have to rely on trusted agents or 
sneaking past sensors and these things is a real threat. That's 
something that can in fact happen.
    Mr. Welch. And the question I asked is whether--do you 
think that threat is a greater threat than delivery by these 
asymmetric means?
    General Obering. Sir, I don't know if I can quantify that. 
What I can say is that it is a threat that we can do something 
about.
    Mr. Welch. I actually think it's important to have some 
quantification. If there's limited resources and we have to 
decide to put those resources into protecting ports from a 
delivery by means of backpack or cargo container versus put our 
resources into acceleration of the missile defense program, and 
we can't do both, which do you think is a more imminent threat?
    General Obering. Again, sir, I'm not an expert in that 
regard. I'm only an expert in the missile portion of that, the 
missile defense portion of that.
    Mr. Welch. Well, I understand that. And again, this is not 
just you. That's your job, so that's what you've got to do. And 
I think all of us respect that and appreciate your history 
here. But from the perspective of threat--I mean obviously it's 
very important for national security reasons that people with 
experience like you and policymakers have threat assessments, 
right?
    General Obering. OK, sir, if I can answer it this way: I 
look at the intel books every day.
    Mr. Welch. You look at what?
    General Obering. I look at the intel assessments every day. 
I don't recall seeing any testing of a nuclear suitcase weapon 
in those books in the last 4 or 5 years--4 years that I've 
been--almost 4 years I have been Director. I have seen year 
after year after year, test after test after test, last year 
120 of those missiles from a variety of countries around the 
world. So I'm paying attention to that capability. And if we 
have countries that are producing that capability in those 
tests and then some of those countries, a small subset are 
making very hostile statements against the United States, it's 
something that I am being paid to pay attention to and to see 
if we can do something about that.
    I'll leave it up to the Congress and others to make a 
determination of how much is enough of what. All I can say is, 
from my personal perspective, I see this progression across the 
globe, and I see it's something that we can actually do 
something about.
    Mr. Welch. What countries are you focused on as a threat to 
our security through the delivery of missiles?
    General Obering. I think today Iran and North Korea have 
made very hostile statements against both the United States and 
our allies. They are backing that up with capability 
demonstrations. One of the lessons learned from the summer of 
2006 is the North Koreans had carried on their Taepodong-2 
program much beyond what we were anticipating and they 
attempted a launch of that long-range weapon. But more 
importantly, the shorter-range weapons that they fired, they 
showed a dramatic improvement in the reliability and the 
accuracy of those weapons as well.
    Mr. Welch. Do you believe that our capacity for massive 
retaliation if there were a missile attack by Iran would serve 
as any deterrent on the launch of a ballistic missile against 
the United States from Iran?
    General Obering. If the controlling authorities were 
deterrable, yes, sir. If they're not, then the only thing you 
can do is protect yourself against that missile. And I think 
that is what I am trying to convey, and maybe not very well, is 
that we are no longer in the cold war. We no longer can rely 
solely on deterrence because we may face in this century 
organizations or countries that are nondeterrable.
    Mr. Welch. Right. Well, I actually agree with that. I mean, 
actors that are nondeterrable. And that's what the problem is 
with the asymmetric warfare tactics of folks who use terror as 
a political tactic. But our--as I understand it, our recent 
National Intelligence Estimate on Iran, our November 2007 
intelligence estimate concluded, ``Tehran's decisions are 
guided by a cost-benefit approach.'' Do you agree with that 
conclusion in the National Intelligence Estimate?
    General Obering. I will give you my opinion of that. There 
are three things that are necessary to deliver a nuclear weapon 
or weapon of mass destruction. You have to have--in a nuclear 
weapon, you need to have the enriched uranium to be able to 
produce the material. You have to have a weaponization of that 
and you have to have a weapons delivery vehicle. Now if you 
look at the cost-benefit analysis that is going through the 
Iranians right now, why are they investing so heavily in the 
weapons delivery vehicle systems; i.e., the missiles, if 
they're only interested in a small conventional warhead? 
Knowing the accuracies that they have, it doesn't make a lot of 
sense to me. That's my assessment. So I think that--and I think 
there's been followups to the NIE since then that talk about 
what that really meant in terms of halt and whether they've 
restarted etc. But I don't think it makes sense to say that 
they're going to stop weaponization and yet they're going to 
accelerate their missile programs.
    So I believe that it doesn't make sense. I think it's 
something that we really have to pay attention to.
    Mr. Welch. So what's your threat assessment of the 
likelihood of Iran launching a first strike missile attack on 
the United States?
    General Obering. I believe that the ability to do that is 
several years away. The ability to do that is probably not 
before 2015 based on the intel experts that inform us. The 
problem there is, we have to be prepared for that because 
capability takes years to develop, both offensive as well as, 
by the way, defensive to be able to build a defense for that. 
But intent can change overnight. So I can't guarantee the 
Congress and can't guarantee the U.S. people that we will be 
protected from attack because they choose not to do so.
    Mr. Welch. What is my time?
    Mr. Tierney. Your time has expired. We're going to have 
another round.
    Mr. Welch. OK. Thank you.
    General Obering. Yes, sir.
    Mr. Tierney. Mr. Van Hollen, you're recognized for 5 
minutes.
    Mr. Van Hollen. Thank you, Mr. Chairman. And again, thank 
you for holding this series of hearings. And welcome, General.
    Just to frame the discussion, and it already has been, I 
think, very well framed by my colleagues, this is not a 
question of whether the United States should be spending any 
money at all in this area. The question is, the amounts of 
money that's being spent, especially given the other threats 
that are out there.
    Now you have said that this represents 2 percent of the 
Defense Department budget which, as you know, is a huge budget. 
If you take the $10 billion, it represents one-third of the 
entire budget for the Department of Homeland Security. And 
that's the issue being raised here because according to most 
intelligence analysts, while I understand what you've been 
saying, that you're not an expert on comparing the risks, the 
intelligence folks who do make it their business to do that 
have indicated that you're more likely to have a threat, 
especially in the near to mid-term of a nuclear weapon being 
smuggled into this country. And the fact of the matter is we're 
spending very little to defend against what is a more probable 
and realistic threat at this time compared to what's being 
spent to look at what may be a threat way out there on the 
horizon. But I want to focus on the effectiveness issue as well 
because if we're going to be investing this kind of money, we 
would hope that it would be an effective system.
    And you state in your prepared remarks that under the 
Missile Defense Act of 1999, ``it became U.S. policy to deploy 
missile defenses as soon as technologically possible to defend 
the United States against limited ballistic missile attacks.''
    There's also another portion of that language in that 
directive that says, ``but it should be an effective national 
missile defense system.''
    Now in a prior hearing in this committee we heard from a 
number of experts and scientists in this area, including 
Richard Garwin--and I'm sure you are familiar with Mr. Garwin. 
He's been focused on this area for a very long time--who said 
that should a state be so misguided as to attempt to deliver 
nuclear weapons by an ICBM--and I assume he said that for the 
reasons Mr. Welch was talking about, because if you're a state 
launching an ICBM against the United States, for example, we 
know where it came from. We have overwhelming ability to 
retaliate. But if they were to be so misguided as to do that, 
they could be guaranteed against intercept in mid-course by the 
use of appropriate countermeasures.
    A 1999 NIE judges specifically that Iran or North Korea 
could have such measures at the time of their first ICBM task. 
Now you were talking in your remarks about the year 2015. Would 
you judge that by that timeframe that any of these potential 
threats that you've been focused on North Korea or Iran would 
have very effective countermeasures if they were to at that 
time be able to have this missile capability?
    General Obering. We are anticipating that to be the case.
    Mr. Van Hollen. OK. Let me ask you this: Do you believe 
that the systems you've tested to date would be able to defeat 
the countermeasures that would--and this is a total 
hypothetical. It wasn't a hypothetical at the time of the 
Soviet Union. It's obviously much less likely now. But I'm just 
asking you the technology question.
    Would your system be able to defeat the type of 
countermeasures that could be deployed by Russia if, 
hypothetically, it were to launch an ICBM against the United 
States?
    General Obering. In 2015 or today?
    Mr. Van Hollen. Today.
    General Obering. Not today. So very complex 
countermeasures. The system would not be able to handle for 
either the short, medium or long-range system.
    Mr. Van Hollen. Right.
    General Obering. But the types of countermeasures that we 
would anticipate a country like Iran or North Korea to be able 
to employ, we believe it can.
    Mr. Van Hollen. So you are not testing now against the kind 
of countermeasures that hypothetically Russia----
    General Obering. Yes, sir, we are. But not in our intercept 
program. We've had a very robust countermeasures test program. 
So we've actually flown very complex countermeasures against 
our sensors and our systems. We've had eight flights over the 
past several years in which we have collected immense amounts 
of data and being able to--that's how we're deriving our 
algorithms for our sensors and radars to be able to counter 
those in the future.
    And in addition, one thing that I mentioned in my opening 
remarks, we can't lose sight of the fact that we're building a 
layered system. So what we would like to do is destroy that 
missile before it ever is able to deploy or employ a 
countermeasure. That's what our boost phased defenses are for. 
Once they do that, we have the ability to deal with those more 
complex countermeasures by virtue of what we're doing with our 
sensor programs, our algorithms development, and our Multiple 
Kill Vehicles where we're able to take out the credible objects 
that we're able to discriminate.
    So in answer to your question, I believe that today we are 
able to counter the simple countermeasures that we would 
anticipate from a country like Iran or North Korea. And for the 
future, we have a robust program laid in to be able to counter 
those.
    Mr. Van Hollen. But in the year 2015 that you are talking 
about, what kind of countermeasures capability would you 
anticipate from----
    General Obering. I would have to go into a classified 
session to talk about that.
    Mr. Van Hollen. OK. But are you suggesting that by the year 
2015 you would be able to effectively respond to 
countermeasures that could be deployed by--again, this is 
hypothetical--but by Russia, Russian ICBMs?
    General Obering. We should have a pretty good leg up, yes, 
sir, based on our algorithms, based on our sensors and then 
based on the follow-on Multiple Kill Vehicle programs and then 
eventually the boost-phased defenses just shortly thereafter.
    Mr. Van Hollen. Last question, Mr. Chairman. What would you 
do to fully deploy the kind of system----
    General Obering. Sir, can I make one clarification?
    Mr. Van Hollen. Yeah.
    General Obering. It would not be directed at Russia because 
that presents a different challenge. I'm talking about a 
country like Iran and North Korea that would have the kind of 
countermeasures on their fleets. So for example, if you're 
talking about trying to counter a Russian attack, absolutely 
not because you are talking about hundreds of missiles and 
thousands of warheads. That's not what I'm referring to. I want 
to make sure you are talking about the kind of countermeasures 
themselves that would be deployed on a single missile.
    Mr. Van Hollen. Well, then, based on that assessment, what 
kind of missile deployment are you basing your calculation--
with respect to Iranian or North Korea missile capabilities in 
terms of numbers? Because the point you are making, I 
understand, you know, if you are talking about one missile, you 
may have that ability but--so based on your estimate here, what 
kind of fleet of missiles are you, in terms of your 
hypotheticals, are you using for this assessment?
    General Obering. Well, actually we get that from the intel 
community and what they think and assess their abilities would 
be. And we factor that into our force structure that we 
recommended to the Department. So right now that consists of 
about 44 missiles in the United States, 10 in Europe. So a 
total of 54 of the long-range missiles. We would have--by 2013, 
we would have approximately 133 of our sea-based interceptors. 
We would have approximately 100 of our THAAD interceptors with 
four or five units capable of deployment. Then shortly 
following that, we would begin to ramp up with a long-range 
sea-based missile that we call the SM-3 Block IIA, and those 
numbers have yet to be determined in terms of what that would 
be.
    Mr. Van Hollen. And again, we're going to hear some more 
testimony after you. But there are obviously serious questions 
have been raised about whether the testing program that you've 
undertaken really tests under realistic type scenarios with 
respect to the countermeasures. And I understand your testimony 
here. But I think----
    General Obering. I can address that if you like.
    Mr. Tierney. We're going to do that I'm sure in the course 
of questioning, sir.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. Thank you, General 
Obering. I am pretty stunned by the fact that given that you're 
in charge of this program that you wouldn't have been given the 
opportunity just to make a presentation. If it took 5, 10, 15 
or 20 minutes, I would have thought you would have been given 
that opportunity. And I can't imagine why this committee would 
be reluctant to do that. You're in charge of the program. We've 
had a number of hearings where all we've heard from primarily 
have been critics with one witness that we're allowed to 
introduce as a counter. And the only reason we introduced a 
counter in support of the program is, we want there to be a 
counter. If they had all--only people favoring it, we would 
have had a counter the other way. But it strikes me, one, that 
you have a lot more to say and you would have had a lot more to 
introduce that should have been made part of the record, and I 
deeply regret it. I can't even tell you how deeply I regret it. 
It makes me feel that this committee does not want to really 
know how this system works. They just want to score points.
    Mr. Tierney. Mr. Shays, you will have ample time to ask 
your questions.
    Mr. Shays. No. No. I don't have ample time.
    Mr. Tierney. We're going a number of rounds.
    Mr. Shays. I'm just going to make a point to you.
    Mr. Tierney. You've made your point.
    Mr. Shays. You have interrupted me and I will claim back my 
time. I have deep respect for you, Mr. Chairman. But when it 
comes to this, I think this is a fraud. I think this is an 
absolute joke. You should have been given as much time as you 
needed. And had I been chairing this committee and it was the 
other way around, I would be doing that. It's no sense to bring 
in someone of such expertise and tell him he has 5 minutes and 
then we'll give you an extra 2 or 3 minutes and make him rush 
through a presentation that he was not able to finish. It's 
just a fraud.
    I found myself not being a supporter of this program when 
it started out because I didn't think you could hit a bullet 
with a bullet. I didn't think you could do some of the 
technology. And it's really a surprising thing to me, frankly, 
that it is unfolding the way it has. I have been one that says 
it should not be deployed until it works. I have to tell you, 
though, when Iraq was sending SCUD missiles into Israel, I 
thought, oh, my God, we didn't--the PATRIOT didn't work all 
that great. But it did serve some function. Does this system 
have any capability in a much shorter-range theater? And if 
Israel had the kind of technology today, would those SCUD 
missiles have penetrated the way they had penetrated?
    General Obering. Sir, what I can do is talk about the 
latest fight in Iraqi Freedom. There were several missiles 
launched against coalition forces. They were all totally 
destroyed. Those that were going into defended areas were 
totally destroyed by the PATRIOT systems that we had deployed. 
That included the PAC-3 by the way. One of those--at least one 
of those trajectories we now know would have impacted a very 
heavily populated area in the coalition force arena. So that--
the money we're spending is for the short-range defense as well 
as the medium and the long-range defenses.
    And may I say that, you know, obviously other nations than 
the United States are making the cost-benefit analysis to go do 
this. Because we are--we are, frankly, being inundated by 
several countries to help them to build missile defenses very 
rapidly. As I said in my opening statement, there are actually 
18 nations around the globe that we're working with to help 
them build a missile defense system as well.
    Mr. Shays. Explain to me the support of NATO because I'm 
surprised. I thought some of our NATO allies were pretty 
critical of this system. So I don't know how to interpret your 
comment that there's support among NATO for a missile defense 
system.
    General Obering. Sir, in the Bucharest Summit Communique 
that was released in April, there was a statement in there--I 
think it was paragraph 37, and what they did is they basically 
welcomed the U.S. long-range defense proposals that we are--
that's the proposal to put 10 interceptors in Poland and a 
radar in the Czech Republic to provide--to begin to provide 
long-range protection for our deployed forces in that region 
along with our NATO allies. And they also went--they took it a 
step further and they tasked their own infrastructure to come 
back at the 2009 summit with options for how they build 
shorter-range defenses, missile defenses to integrate with the 
longer-range systems. And we are helping that process. In fact, 
we had a demonstration in January of how we could take the 
command and control system that we have deployed for the U.S. 
components and what NATO is building. NATO is building a 
theater missile defense program today that's called an active 
layered theater missile defense program. And the NATO Air 
Command and Control System is the command and control system 
for that. We're showing how we can integrate those two together 
by taking radar track data, mission data, those types of 
information, and running that on the NATO system, then taking 
the NATO data and running it on our system.
    Mr. Shays. Is it conceivable that contrary to the wishes 
of, say, the leader in North Korea or the powers that be in 
Iran, that someone could direct a missile at the United States 
without their leadership knowing about it?
    General Obering. Sir, that would have to do with the 
command and control of the weapons in the country. It's 
something that I'm not an expert in. But it certainly is within 
the realm of the feasible that could be done without the 
knowledge of a government, depending on how loosely or how 
tight those controls are.
    Mr. Shays. Thank you. Thank you, General.
    Mr. Tierney. Thank you, Mr. Shays. Mr. Hodes, you are 
recognized for 5 minutes.
    Mr. Hodes. Thank you, Mr. Chairman. General I want to talk 
a little bit about some of the testing that's been done. But 
I'd also like to put this in the context of costs. We've spent 
approximately $125 billion over the last 25 years. For missile 
defense last year, $9.9 billion, the CBO estimates that if the 
MDA continues on its course, the taxpayers are going to spend 
an additional $213 to $277 billion between now and 2025. So in 
the context of those kinds of numbers, I want to ask some 
questions about testing.
    Is it true that over the past 5 years, there have been only 
two successful GMD flight intercept tests?
    General Obering. In the new configuration, yes, sir, but 
the total configuration, including the prototype of what we 
deploy today, there are now six of nine over the last--since 
2001.
    Mr. Hodes. How many GMD flight intercept tests will you do 
before you introduce flight intercept tests with more than one 
mock enemy missile in the attack, when do you plan to do that?
    General Obering. Well, first of all, I think we have that 
plan for later in our program. But in reality, the ability to 
deal with multiple missiles is better tested in our ground 
tests and our modeling simulation. Because looking at the 
geometry and physics of these attacks, each--each attack, each 
missile attack is, in essence, an isolated event, so we learn 
more from that from our flight tests.
    Mr. Hodes. We have heard--we have had testimony that in 
March 2002, the MDA told Congress that the first GMD tests with 
multiple targets, that is, with several mock enemy missiles 
launched at once could take place as early as 2005.
    You're now saying that's going to take place later in the 
program, and you say that other means are better than mock 
tests. When did you make the determination that the other means 
were better than the mock tests that you said would take place 
as early as 2005?
    General Obering. So that says we gain more and more 
confidence in our modeling and simulation program that's what--
that's what would prompt that.
    Mr. Hodes. In other words----
    General Obering. I want to--I'm sorry, go ahead.
    Mr. Hodes. I just wanted to make clear. In other words, you 
switched, after 2002, your assessments of what kind of testing 
you wanted to do?
    General Obering. Sir, we do that all the time.
    Mr. Hodes. And when was that change made?
    General Obering. I don't recall. I would have to submit 
that for you for the question for the record.
    Mr. Hodes. And when you say later in the program, what do 
you mean by later in the program terms of when you're going to 
be conducting the actual tests with multiple, multiple targets?
    General Obering. I'll have to submit that. I want to make 
sure I'm accurate in that. I know it's what we call our 
Integrated Master Test Program, but let me get back to you on 
that.
    Mr. Hodes. All right. And I'm sorry, I didn't want to cut 
you off, you were going to add something.
    General Obering. Sir, just the fact that we do salvo 
testing, which is what you're referring to. In--in our short 
range--in our short range defenses, we have done that with our 
sea-based where we launched two targets in the air 
simultaneously, and we've engaged with two inceptors because it 
makes sense in a tactical situation.
    In the long range by the time you've grown that geometry 
over thousands and thousands of miles having two intercepters 
in the air at the same time, against two different targets. 
What I'm trying to say is each one of those is like an isolated 
engagement that is fully capable of being tested in a single 
engagement.
    Where we really are--what you're really stressing there is 
your commander control, your sensors, that type of thing and we 
can inject and we can do a better job with our simulations to 
be able to--to stress that system, not just with two but with 
10 or 20 at the same time.
    Mr. Hodes. When do you plan to conduct a flight intercept 
test to demonstrate that the GMD is effective at night?
    General Obering. Let's see, sir, we had--we actually had a 
night launch, as I recall, that was--that was scrubbed because 
of--because of one of the intercepting issues, but that was 
several years ago. Again, I will submit the answer for the 
record in terms of when that will be.
    Mr. Hodes. And just to jog your memory, our understanding 
is that according to previous testimony the first nighttime 
test was to have been back in December 2002. So we haven't yet 
had a successful nighttime test, and that's just that we're 
about 6 years behind schedule on nighttime testing?
    General Obering. Sir, it depends. We went to a different 
configuration on the kill vehicle between the 2002 timeframe 
and the 2004 timeframe. So I'll have to--again, I would have to 
submit that answer for the record.
    Mr. Hodes. What about conducting a flight intercept test to 
demonstrate that the GMD system is effective in bad weather?
    General Obering. We will probably not do that with respect 
to actual flight tests because we want to make sure we gain as 
much information as we can from these launches because of the 
money we spend on them. And, for example, we want to make sure 
we have optical tracking in case we do have a problem that we 
can gain the data from that.
    Mr. Hodes. So you--I'm just going----
    General Obering. It is not something that we're very much 
concerned about frankly.
    Mr. Hodes. You're not very much concerned about whether or 
not the system is effective in bad weather, or not concerned 
about sort of in flight testing for bad weather?
    General Obering. We're not concerned about--we're not 
concerned that weather will have a major impact on the system 
is what I'm trying to say. For example, I mean we've launched--
well, we've launched out of Vandenberg in heavy inter--in heavy 
cloud layer of marine layer. We did that in FTG-2, which was a 
year ago, a little over a year ago now, a year and a half ago.
    There is some--you can get some degradation with some 
climate effects on sensors. But in order for that to be a 
factor, it would have to be every sensor that you have in the 
program at the same time, which is not a high likelihood. And 
in addition, you can test those effects in our modeling and our 
simulation and our test program much more--with much more scope 
and much more expansiveness than doing in a flight test. And it 
is much cheaper to do it that way. Does that answer your 
question?
    Mr. Hodes. Yes and no. Perhaps I'll followup at a later 
time. My time is out. Thank you.
    Mr. Tierney. Thank you, Mr. Hodes.
    General, I just want to follow in that same vein. That 1999 
National Intelligence Estimate on accounting measures, I don't 
know that Mr. Hodes read the whole thing. ``We assess that 
country's developing ballistic missiles would also develop 
various responses to U.S. theater and national defenses. Russia 
and China have each developed numerous countermeasures and 
probably are willing to sell the requisite technologies. Many 
countries such as North Korea, Iran and Iraq probably would 
rely initially on readily available technology including 
separating RVs, spin stabilize RVs, RV rear orientation, radar 
absorbing material, boost-er fragmentation, low powered 
jammers, CHAF, and simple balloon decoys to develop penetration 
aids and countermeasures. These countries could develop 
countermeasures based on these technologies by the time they 
flight test their missiles.''
    I assume that you agree with that, that by the time they 
flight test the missiles, they could develop those kinds of 
technologies.
    General Obering. They could, sir. Yes, sir, but go ahead.
    Mr. Tierney. So let me ask you--I don't--I didn't hear if 
this was asked. Have you had a test against a flight incept 
system test where you introduce decoys that resemble the target 
RV in the infrared signature size or shape?
    General Obering. Sir, if I answer that, I will have to do 
it in closed session in terms of what we have actually flown 
against, but we have flown against countermeasures in our 
program.
    Mr. Tierney. Well, I think I have that--in unclassified 
form here. I'm going to go over it in detail and it's certainly 
public record out there. So we can wait until then if you'd 
like.
    General Obering. But--what--when you get to an operation 
and deployed system what you can and can't do with respect to 
capabilities and limitations becomes classified. And the 
ability to deal with certain types of countermeasures. What I 
can say is that we are, we have flown against countermeasures 
in the past to try to decoy the kill vehicle. We are flying 
against countermeasures in our next flight test for the long 
range system, for next two this year. And we will continue to 
expand that in our future test program. So if that answers your 
question.
    Mr. Tierney. Well, it does and doesn't. I mean, we have 
information about what you've flown against, it is public 
information. It's out there and publicly gone.
    General Obering. Sir, we changed the kill vehicle 
capabilities since those tests were done. We have an 
operationally deployed kill vehicle now that is different than 
the prototype that was flown in the countermeasure tests. We 
learned what we wanted to learn from that testing.
    Mr. Tierney. But against which there have no real 
operational tests taken, right? But you have not done realistic 
operational tests.
    General Obering. Sir--again, we believe that there are 
missiles that have been deployed that do not have the 
countermeasures, in fact, the vast majority. And this argument, 
by the way----
    Mr. Tierney. We're not talking about short range and medium 
range here. We're talking about intercontinental ballistic 
missiles. And in that sense, you don't even think that Iran or 
North Korea has the current capacity to send those against the 
United States. So, we're talking here I think about, what you 
think is going to happen on 2015.
    General Obering. Sir, to have this conversation in a 
genuine fashion I need to go closed. Because I can tell you 
what--I can tell you what we have seen, and what we have 
experienced, and what we have flown against.
    Mr. Tierney. I have to tell you, General, this stuff, you 
know, how the American public's supposed to decide on something 
with this kind of enormity and expense and speculation on some 
of the capabilities is mind boggling when it goes on a 
classified sense. We overclassify so much in this country.
    Back when the President made the decision that he wanted to 
try to deploy this inoperable system back in 2004, we asked for 
Government Accountability Office to study this. It was done. 
There were 50 questions. Mr. Coyle, you know, had 50 of the 
questions in previous testimony that were addressed in that 
study. It came back, and the minute that it came back it was 
classified all of a sudden.
    I have to tell you they don't classify stuff when it is 
good news around here these days, they classify what is bad 
news apparently. I don't think it does a service to the 
American people at all to this Congress to keep classifying 
everything on that basis. And I think we just have to go on 
from here. But I hope that's not going to be your answer to 
every question about the capability of these systems.
    General Obering. Sir, I am being as honest and candid as I 
can. First of all, and I'll repeat, we have flown against 
countermeasures in the past with prototypes of the kill 
vehicles that we deployed. And we are successful in those 
tests. We actually identified the warhead and we engaged the 
warhead in those tests. And that included not just the ability 
to do that using infrared data, but we also used our radar data 
to be able to make that determination so that is a fact.
    The particular types of countermeasures and the particular 
capabilities and the signatures and everything else are 
classified. When we now move into the operational 
configuration, which is the big difference, that's what 
happened in 2004 is it became an operational system. It was not 
an open research and development system. And we changed the 
capabilities. We frankly robusted the capabilities of the kill 
vehicle in terms of algorithms that we're using. And what you 
saw in the video in terms of the discrimination techniques that 
we were using, that became classified. Because I'm sure, Mr. 
Chairman, you would not want us to transmit in an open hearing 
to enemies around the world in Iran and North Korea any kind of 
data that they could take advantage of in trying to overcome 
the system for the future. I know you wouldn't want to do that.
    Mr. Tierney. Of course not. And that's a tremendous red 
herring that we're not even talking about here. So----
    General Obering. That's exactly what we're talking----
    Mr. Tierney. What we're talking about is the capacity of 
this and people in this country spending hundreds of billions 
of dollars on a system. They ought to know against what it will 
work and against what it won't work. And I'm not sure that 
information is going to affect any other country's capacity 
going on here on that basis, but it should effect our 
decisionmaking process how to spend the taxpayers money. Let me 
go on for a little bit, if I can, on this as far as we can go 
before we find out that everything is classified here. Have you 
tested against booster fragmentation?
    General Obering. Pardon me?
    Mr. Tierney. Have you tested against booster fragmentation?
    General Obering. Yes, sir. We have--not in an intercept 
test, but again, in our flight tests we have.
    Mr. Tierney. But not an intercept test?
    General Obering. Right.
    Mr. Tierney. How about low power jammers.
    General Obering. No, sir, not yet.
    Mr. Tierney. How about CHAF?
    General Obering. We have tested it in our flight test and 
we also tested low power jammers in our flight tests, but not 
intercepts.
    Mr. Tierney. Ms. McCollum, you are recognized for 5 minutes 
and I'll come back.
    Ms. McCollum. Thank you, Mr. Chair. Sir, I'm going to read 
from your testimony on page 17. ``There's one real world 
example of where missile defense did not play a role and that 
provides an important lesson. September 11, 2001, terrorist 
attacks on our country. According to the Government 
Accountability Office, the direct cost of the September 11, 
2001, attacks in New York City was $83 billion. That was an 
attack that did not involve Weapons of Mass Destruction.'' And 
I know you and I also reflect a great sadness of the loss of 
life on September 11th.
    So this is my dilemma, we need to have a comprehensive 
threat assessment across all sectors, ballistic missile 
threats, smuggled nukes in cargo containers. So General, I want 
to find out, have you been part of interdepartment 
considerations that involved both defense and Homeland Security 
to try to figure out the right funding mix across this entire 
country? We have limited resources.
    General Obering. Ma'am, that--my role in that is to provide 
what the costs would be to protect against a ballistic missile 
attack both by deployed forces for short range, intermediate 
range and long range.
    Ms. McCollum. Do you believe as a citizen, as a patriot of 
this country, as a person in your capacity, though, that 
funding decisions should be based on the overall threat 
assessment to all threats----
    General Obering. Obviously.
    Ms. McCollum [continuing]. To the United States?
    Over the next 5 years the Pentagon has requested another 
$62.5 billion for missile defense. If Congress supports this 
spending on missile defense by the end of 2013, over $110 
billion will have been spent since 2003. I want to say that 
again. $110 billion will have been spent just since 2003. 
That's not counting the missile defense spending and the 
previous 10, 20, 40 years.
    So I have a couple of questions that maybe you can help 
with me, as I point out, I also serve on the Appropriations 
Committee. How much money is it going to cost to complete the 
overall BMD system? And when will the overall BMD systems be 
complete? How much money will it cost to complete the ground-
based GMD system? And when will the GMD system be complete?
    The Congressional Budget Office has estimated for us that 
if the Missile Defense Agency continues course, the taxpayers 
will spend an additional $213 to $277 billion between now and 
2025. Do you agree with this assessment? And if not, could you 
tell me as specifically as you can why you do not. I would like 
to get down to the money because there are other defense needs.
    General Obering. OK. If I go back to your first question, 
am I concerned or would I be interested in or as a citizen or 
patriot in terms of the overall flight assessment, the answer 
is yes. Do I believe that we have the option or the freedom to 
pick and choose which one of those that we can ignore? No, 
ma'am, I don't.
    Ms. McCollum. General I didn't say about ignoring, I just--
I just wanted----
    General Obering. OK, but I'm saying maybe if I can answer 
it. I think it is important that we cover all of those threats, 
because as soon as we announce that we are not going to cover a 
missile defense threat or a missile threat, that would be the 
avenue by which we are attacked, No. 1. You asked me about what 
it will take to finish the program. If you can tell me what the 
threats are going to be in the next 10, 15, and 20, to 25 
years, I can answer that, but nobody can.
    Ms. McCollum. Sir, did we not have a goal with stated 
objectives when we started this program of where we would be?
    General Obering. Yes, ma'am, I can tell you we're meeting--
we're meeting our goals for the first phase of the ground-based 
midcourse system is the way I describe it, which is, we are 
buying with the 2009 budget the last of the missiles we would 
need for the installation in the United States, the 44 
interceptors.
    Ms. McCollum. So----
    General Obering. We've already paid--we've already paid for 
the sensors. Pardon me?
    Ms. McCollum. Everything is on track.
    General Obering. It's on track for the ones that we have in 
place, or that we have planned to place in the United States.
    Ms. McCollum. On track with no cost overruns?
    General Obering. Ma'am, actually that cost for the GMD 
contract would have been, right now, 9 percent estimated 
completion of that cost, which is pretty good in terms of the 
Department standards. That's an effort that's been ongoing over 
10 years now. It is about an 8- to 10-year contract. The next 
phase, if you want to call it that, would be the deployment to 
European site. We have costed that to be anywhere from $3\1/2\ 
to $4 billion, that includes the interceptors, the radars, the 
support for that, the communications and everything.
    Ms. McCollum. Let me go back then. Do you agree with the 
Congressional Budget Office that we're going to spend an 
additional 2----
    General Obering. No, ma'am, I don't, I don't. I don't 
agree.
    Ms. McCollum. Can you submit to the committee why you 
disagree with the congressional----
    General Obering. Yes, ma'am I can. I will do so. I will 
tell you why I would not agree with that. Because they are 
making assumptions about what we will continue and what we will 
not continue that I don't think are accurate so I'd like to do 
that in writing.
    Ms. McCollum. Sir, with all due respect, you just said that 
this program has no end because you have to completely be 
reassessing----
    General Obering. Yes, ma'am, but I'm talking about a matter 
of degree. About which programs you carry in total. Let me give 
you an example. Do we need two boost phase defense programs? 
The communicator sat there in the airborne laser, the answer is 
no. If the airborne laser works and if we can make that 
operation affordable, then we would pursue that program. So I 
believe what we're talking about is a matter of degree in terms 
of what we carry forward.
    Ms. McCollum. Thank you. Mr. Chair, I realize my time is 
up, but I want to note that your budget of $10 billion is one 
third of the total budget for Homeland Security and that is the 
dilemma this Congress faces. Thank you, Mr. Chair.
    Mr. Tierney. Thank you, Ms. McCollum.
    Mr. Welch, you're recognized for 5 minutes.
    Mr. Welch. Thank you. General, one of the concerns I have 
is that the budgeting for this program is in the research and 
development component of the Defense Department; is that right?
    General Obering. Pardon me? Yes, sir, yes, sir.
    Mr. Welch. And obviously this program going on 25 years at 
this point has a pretty strong life of its own. My 
understanding is that there are plans for very substantial 
purchases. According to the information I have, this is for new 
interceptors between now and 2013. It includes interceptors for 
the GMD system in Alaska and California, 111 SM-3 interceptors, 
100 terminal sea-based interceptors for the Aegis BMD system, 
96 THAAD interceptors, 400 Patriot Pack 3 interceptors. It adds 
up, left a few out, to about 635 new interceptors proposed to 
be bought in the next 5 years.
    I have two questions. First, why can taxpayers be confident 
that our money is being well spent when this very significant 
acquisition plan is not in the regular procurement sections of 
the DOD budget?
    General Obering. Well, first of all, the fact that it is or 
is not in a regular procurement mode I would submit is not an 
accurate measurement of whether it is being well spent frankly. 
I think that is a matter of looking at----
    Mr. Welch. What's the point of having a regular procurement 
system?
    General Obering. Well, first of all, sir, the procurement 
system that you are referring to is one that has grown up over 
the years primarily out of the cold war timeframe, and in the 
missile defense era, and in the missile defense mission area, 
the reason that we are using our RDT&E money for the majority 
of our program, although we are transitioning that to 
procurement for a portion of that beginning in 2010----
    Mr. Welch. Well, my understanding of a budget is that the 
real world decisions and choices have to be made with cost and 
benefits weighing the opportunity costs. If you choose to spend 
dollars here, you're not going to be able to spend them there. 
In my understanding of a basic procurement and budgeting 
process is that it is intended to impose some discipline so 
hard decisions about threat assessment, something that we were 
talking about at the beginning of your testimony have to be 
made.
    General Obering. But they can be made at the RDT&E level as 
well is what I'm trying to say. And there's Defense wide 
accounts that you can make those decisions and determinations 
in. But if I can answer your question----
    Mr. Welch. Well----
    General Obering. We have a good track record in being able 
to manage these programs with respect to cost and schedule No. 
1. No. 2, in terms of the number of interceptors, the ones that 
you quoted we actually are being asked for more of those by the 
warfighters, and that has been approved recently by the Joint 
Requirements Oversight Counsel that's chaired by the vice 
chairman of the Joint Chiefs of Staff. They are not only asking 
for what you just quoted, they are asking for about double 
those in the land mogul and the sea-based area.
    Mr. Welch. We have a bit of a disagreement here.
    Mr. Chairman, my concern is there is not some centralized 
approach where some people who are looking at the information 
coming in from the warfighters and folk advocating for this 
program are also hearing from folks who are who are concerned 
about Homeland Security and the threat that comes perhaps from 
a backpack delivery of a very serious nuclear device. So this 
is isn't an argument really I have with the General, it's a 
concern I have with the process of budgeting where hard 
decisions and threat assessments are not made.
    Just with respect to a second question, General, that is--
655--635 new interceptors. What is it that you describe as the 
threat for which we're purchasing 635 interceptors?
    General Obering. If I could for the budget that the Defense 
Department oversees and is responsible for, there are hard 
decisions made. And those budget trades are being made within 
the Department.
    With respect to what are those numbers of interceptors 
geared for, they are geared for the numbers of missiles that we 
see, the North Koreans and Iranians deploying, and capable of 
using in the regional fights, along with the anticipated long-
range missiles that we believe that those countries will be 
capable of producing over the next several years.
    Mr. Welch. Is it fair to say--I've been listening to your 
testimony carefully, and what I hear you say is that this 
program is essentially necessary in order to deal with the 
threat that has been assessed to be presented by Iran and North 
Korea.
    General Obering. For the missile defense program that we 
have fielded, yes, sir.
    Mr. Welch. Already. And--that's it, my time is up. And I 
yield back, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Welch.
    Mr. Hodes, you are recognized for 5 minutes.
    Mr. Hodes. Thank you, Mr. Chairman.
    General, I would like to continue down some of the line I 
was following before about reality testing for our systems. I 
understand and note your testimony that modeling is something 
that you are relying on as opposed to flight intercept tests 
primarily.
    When do you plan to conduct flight intercept tests to 
demonstrate the GMD systems effective when multiple attempts 
are needed to bring down a single target and can work when more 
than one missile is launched?
    General Obering. Sir, we do that already in term of our 
ground testing. We already test how many missiles, which 
locations, what the stressing conditions are. We do multiple 
runs of those over a period of days and dozens and dozens of 
runs within our system.
    Mr. Hodes. When you say you do dozens of dozens and dozens 
runs, are those in flight tests or are those the simulations?
    General Obering. Those are simulations.
    Mr. Hodes. OK, and so you're--and my question was when do 
you plan to take from simulation to real life testing?
    General Obering. We don't have any plans to be able to fly 
dozens and dozens of targets against--our interceptors against 
dozens of targets. That would be too cost prohibitive.
    Mr. Hodes. So you're going to rely solely on simulation for 
that?
    General Obering. Sir, that's not unusual. We do that in 
many other programs in the United States, including reliance on 
modern simulation for space shuttle for other programs.
    Mr. Hodes. The answer to my question is yes, you're going 
to rely on simulations?
    General Obering. But it is anchored by flight tests, sir. 
So I want you to--I want you to understand that. We are in the 
process of going through, validating and verifying our models 
and our SIMs. We should have that process complete by October 
of next year. But in that validation verification process, we 
use the flight test that we conduct to make sure that we anchor 
those. If we could--if I still have my briefing I would like to 
show you a chart and I would just like to show you one example 
of what I'm talking about.
    Could we bring up my briefing please, if that's OK. And if 
you could please go to slide--this is just one very, very small 
example, but it is illustrative. And could you go to slide No. 
9, please. Keep going, right there, stop.
    OK, I'll use the satellite interceptor we did in February. 
We did this in about 6 weeks as I mentioned in my opening 
statement. And what you see here is these are modeling and 
simulation predictions of what the intercept would look like if 
we engaged that satellite. With--first of all, on the left is 
without hitting the tank. And the one on the right is as if we 
hit the hydrazine tank that was posing the threat. So we ran 
through our models and our SIMs, what would that look like if 
we did that?
    Now, let me show you a clip one more time. This is the 
actual image of the intercept. So our ability to predict what 
that was going to look like in real-time was pretty 
significant.
    We also used our models and SIMs to predict performance as 
they do fly outs to predict where we're going to hit on the 
target and we know that very precisely within centimeters. We 
use it to predict how it's going to operate in different 
environments. We use it to predict how we can stress the 
systems with respect to different trajectories, geometries, 
etc., so that's what I'm referring to.
    Mr. Hodes. On April 1, 2008, the GAO testified that they 
were unable to assess whether MDA met its overall performance 
call because there have not been enough flight tests to provide 
a high confidence that the models and simulations accurately 
predict BMDs, ballistic missile defense system performance.
    Moreover, the test that have been done do not provide 
enough information for DOD's independent test organization to 
fully assess the BMD's suitability and effectiveness. And we 
heard testimony at a previous hearing that the Pentagon has yet 
to demonstrate the U.S. ground based missile defense [GMB] 
system, is capable of defending against a long range ballistic 
missile in a real world situation, because the tests have 
demonstrated the kill vehicle is able to hone in and collide 
with an identifiable target but under highly scripted 
conditions.
    Are these valid criticisms of the progress to date your 
program?
    General Obering. No, sir, I don't think so.
    Mr. Hodes. And why not?
    General Obering. Let me attack them one by one, or answer 
them one by one. All right. No. 1, the one--the validity in the 
assessment by the GAO of the models in SIMs is correct, it is 
what I talked about. We're going through the process of doing 
that verification. Now, do we have validated and verified 
models? The answer is not yet. Do we have any problems though 
in what we have seen in terms of the predicted data, in terms 
of our flight testing and in terms of what we're seeing in 
terms of real world performance? The answer is no, we have not 
seen any show stoppers. We have not seen anything that would 
have an affect with respect to our program that would tell us 
we're on the wrong path.
    I think that if you ask the Director of Operations, Test 
and Evaluation today he would agree that we're on the right 
path to do this verification and validation of our models.
    In terms of the numbers of flight tests, again the Director 
of Operational Test Evaluation, also testified that he felt 
that we are on the right path, that we have, in fact, conducted 
a test of our long-range system with the operational assets. 
And this includes, as I tried to point out in the video, 
operational realistic conditions. The one condition that we did 
not have on the--on the target was complex countermeasures. And 
I've already gone through that doesn't necessarily have to--you 
don't have to have complex countermeasures to be operationally 
realistic is my point. You will for the future, but you don't 
necessarily have do for today and they've agreed with that.
    Mr. Hodes. So just to put a final point on it. The GAO's 
assessment is just wrong.
    General Obering. I didn't say it was wrong. What I said was 
I don't agree in total with what they came to conclusions. We 
meet with the GAO all the time. In fact, I met with them 
yesterday. You can have people come to different conclusions 
based on the data. But we do know our data better than anybody, 
that's a fact.
    Mr. Hodes. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you. Thank you. General, there have been 
some questions raised in some of the earlier hearings about 
what some people said was lack of clarity of discourse with 
respect to MDA and public announcements. And one example that 
recently the MDA pointed out that there five early flight 
intercept tests that used simple round balloons as decoys. Your 
public affairs director then told the press that five 
successful intercept tests from 1999 to 2002 used the type of 
decoys we would expect from countries such as North Korea and 
Iran. But the decoys in those tests did not resemble the target 
reentry vehicle. With respect to the five early tests the 
decoys used were round balloons, not ice cream cone shaped like 
the marked target with much different infrared signatures.
    The information we have is that MDA has never done a GMD 
flight intercept test where decoys resemble the reentry vehicle 
in shape or infrared signature. In the report that was issued 
on February 28, 2002, the Government Accountability Office 
reviewed the technical challenges of conducting flight 
intercept tests with decoys that closely matched the target. 
And then they explained why the MDA decided then to use decoys 
that did not resemble the target reentry vehicle. Basically 
they said the MDA and its advisors felt that such tests would 
be too stressing, so why take the chance that the test might 
fail?
    Let me go over those five tests, because I want to find out 
if your public relations person was given the direct scoop on 
that or whether there might be some misunderstanding. The first 
in October 2, 1999, is IFT3. That test was labeled successful. 
The only decoy used in that test was a large 2.2 meter diameter 
balloon from IFT1-A and IFT2. It had an infrared signature six 
times higher than that of the marked warhead. Because the decoy 
was so much brighter than the marked warhead the EKV saw at 
first, once the EKV realized that the balloon's infrared 
signature did not match up with the target that it had received 
prior to the test the interceptor shifted to the nearby target.
    IFT-4, January 18, 2000. In this test the interceptor 
failed to hit the target. The failure to intercept was because 
the cryogenic cooling system failed of the EKV failed to cool 
the IR sensors down to their operating temperatures in time 
because of an obstructed cooling line. The only decoy used was 
a single large balloon from the previous test. Smaller balloons 
originally had been planned but they were dropped in an attempt 
to simplify the test presumably because the Welch Panel made 
those recommendations.
    In IFT-5 July 8, 2000. This test also failed. The failure 
to intercept was a direct result of the EKV not separating from 
the surrogate booster due to an apparent failure in the 1553 
data bus in the booster. The decoy balloon did not inflate 
properly causing the MDA official to decide to use a different 
decoy in the future.
    The IFT-6 on July 14, 2001, was a repeat of the IFT-5, but 
this time was mostly successful. Over the prototype X-Band 
Radar the XBR used did not process all the information it was 
receiving properly causing it to falsely report that the 
interceptor had missed its target. I guess if that had happened 
in a non-test situation, more interceptors would have been 
launched to assure a hit of the target and probably needlessly 
so in that case.
    One large decoy balloon was used, this one was 1.7 meters 
in diameter, so it's slightly smaller than the largest balloon 
used earlier as a decoy. It still had an infrared signature 
much brighter, about three times brighter than the marked 
warhead.
    An IFT-7 on December 3, 2001. That was a successful test, 
so labeled. The only variable change from IFT-6 was the target 
booster. Instead of Lockheed Martin's Multi-Service Line 
System, the Orbital Target Launch Vehicle was used. Targets--
that was a modified MinuteMan ICBM carrying a mock warhead and 
a single decoy which did not change from the previous one. It 
was the same one used in IFT-6.
    And then March 15, 2002 IFT-8. A most successful test, 
three decoyed balloons, one large, two small, were used to 
increase the difficulty in determining the target's location, 
the critics have pointed out that the infrared signals of the 
balloon is different from that on the marked warhead. The large 
balloon had a much larger infrared signature than that of the 
mock warhead. Whereas the two smaller balloons had much smaller 
signatures.
    The IFT-9 October 14, 2002 that is said to have included 
the same three decoy balloons, one large, two small as target 
cluster. But specifics are unknown as you started classifying 
your decoy details in May 2002.
    In the IFT-10, May 11, 2002, that failed when the Raytheon-
built Exo-Atmospheric Kill Vehicle did not separate from its 
booster rocket. And a modified Minuteman ICB was being used as 
a surrogate until a more advanced booster rocket could be 
developed.
    The failure to separate precluded the EKV from attempting 
to intercept the target missile. That was the first night test 
that you mentioned earlier, because the intercept failed the 
objective of IFT-10 was to demonstrate it effective at night 
was not demonstrated.
    All of that, I guess, leads to the question of, if North 
Korea or Iran or anybody else were to attack the United States, 
wouldn't it be reasonable to think it would also try to confuse 
our missile systems? I think we pretty much agreed on that 
previously, right?
    General Obering. Yes, sir, but you have some inaccurate 
information there toward the end. The signature of the warhead 
was embedded in the signatures of the decoy--the decoys that 
were used for the last, I believe it was the last two flight 
tests if not the last three. Otherwise we had objects that were 
slightly dimmer and objects that were slightly brighter. But 
you're not going to be able to have--unless the attacker fully 
understands the capabilities of our system, that means the 
capability or our radar in detail and degree or with our 
infrared focal planes and with our sensors to be able to 
exactly identify and accurately model that would be very 
difficult. So having it embedded as much as we can justify or 
as much as we can anticipate what that would be is perfectly 
reasonable and perfectly realistic.
    Mr. Tierney. If the signature is sometimes six times 
greater or three times greater?
    General Obering. Oh, what I said was that they were much 
more closely aligned than what you describing there toward the 
end of the those series of flight tests. Again, it is a crawl, 
walk or run approach that I wasn't the director then, but 
that's how--that's how they were approaching their test 
program.
    Mr. Tierney. Well, it seems to make sense that if North 
Korea is smart enough to make a balloon of one particular 
diameter, they could make it of other diameters as well and 
make it resemble the warhead.
    General Obering. Yes, sir. And then there, as I said, there 
are techniques we're using today that are more advanced than 
what we used then. There are capabilities that we are 
integrating and merging together as part of our program. And it 
was--one thing I want to make sure you understand, is when we, 
after IFT-10 and the failure to separate, my predecessor, 
General Kaddish, made a determination and an assessment based 
on all the data that they had learned as much as they were 
going to learn especially after IFT-9 which was so very 
successful, including the decoy programs, as well as the 
ability of radar and kill vehicles to work together. That was 
an incredibly successful test. So he decided to make the 
determination to go to the operational--the full operational 
configuration.
    Now while we maintained 75 percent of the same kill vehicle 
in terms of characteristics, we did modify about 25 percent of 
the hardware and software on the kill vehicle. And then we went 
to a totally now booster that we began to fly in the 2002, 2003 
timeframe. And so when we went back into the air--attempted in 
December 2004, when I was a director, we had a failure of a 
ground support--at that time was a software timing failure in 
that test on the interceptor. It was a one parameter one line 
of code change to fix that.
    We attempted again in February 2005 and that's when we had 
a piece of ground support equipment. And again, when you went 
to a new configuration, new locations, a different 
configuration of silos you are going to have these kinds of 
glitches, but to make sure that we did not have a systemic 
problem across the board, I'm the one that said we're going to 
stop, and we're going to reevaluate, and start from scratch.
    And I asked for an independent team to come in and take a 
look at that. And the independent team recommended the series 
of flight tests that were on today, getting back into the air 
with a flight test of the vehicle because it was in the new 
operational configuration first without a target. Next flying 
against--they actually recommended that we do not fly against a 
target for another two flight tests. We accelerated that 
because of the success of the first one. So this idea that we 
somehow found countermeasures too hard and we shied away from 
it is just flat wrong. We did it for totally different reasons. 
And now we are reintroducing it as we understand the 
performance of our kill vehicle. Based on our testing, we are 
reintroducing the countermeasures to be able to fly against 
what we think are the kind of threats that we would be facing 
from Iran and North Korea.
    Mr. Tierney. Thank you. Ms. McCollum.
    Ms. McCollum. No more questions.
    Mr. Tierney. Mr. Hodes.
    Mr. Hodes. General, there has been testimony about the 
launch against the satellite, the errand satellite. It's 
really--that wasn't really a test of our defense capability, 
was it?
    General Obering. It was not a test of our missile defense 
capability because we don't have an operational capability to 
do that. We were able to--if you want to go ahead and ask your 
question maybe I can get to the answer.
    Mr. Hodes. I just wanted to clarify that--I mean that 
wasn't a test of our defense capability.
    General Obering. No. Let me tell you why, we modified the 
interceptor to be able to achieve that intercept. We also had 
to modify the radar and we had to modify the ship's weapons 
system, because the ship could not execute that test by itself. 
It had to have off-board information that was integrated into 
the ship's fire control system to be able to accomplish that.
    Now, but were tremendous lessons learned from that, that 
were indeed applicable to our missile defense system.
    Mr. Hodes. I've seen chart of the FTG-3A that you showed 
us. And there was a chart the BMDs hit to kill testing history, 
and my understanding is that since 2001, it explains that in 
test FTG-3 the target failed to reach sufficient altitude; is 
that correct?
    General Obering. FTG-3.
    Mr. Hodes. Yeah.
    General Obering. Yes, that was in May--May 2007.
    Mr. Hodes. How high did it get?
    General Obering. I don't recall. I do recall it was about 1 
to 2,000 kilometers short. So it was not in the engageable box 
so to speak.
    Mr. Hodes. Short does that mean that was how far short of 
down range it failed?
    General Obering. Yes, sir. Yes, sir.
    Mr. Hodes. You don't have the altitude figures.
    General Obering. No, sir. We had to--we could not launch 
against it because for range safety purposes it was not within 
the range safety area.
    Mr. Hodes. Was the interception scrubbed because the target 
didn't go to the place it was expected to go?
    General Obering. Because it as not within the safety 
constraints. We issued notifications to mariners in our flight 
test about areas to stay away from in terms of our flight test. 
And this would have come outside of that area.
    Mr. Hodes. OK. One of our previous witnesses stressed the 
importance of MDA having so called independent red team when it 
comes to testing our capabilities. An independent red team who 
would play the role of North Korea or Iran. Do we have one? If 
not, why not? And are there plans to institute a red team in 
the future?
    General Obering. Yes, sir. We have used red teams in the 
past, in the agency, yes, sir.
    Mr. Hodes. Do you plan to continue using them?
    General Obering. Oh, we have a variety of independent teams 
in addition to just the red team.
    Mr. Hodes. We've also heard testimony that the current GMD 
program has no operational criteria for success. Is that so and 
if not, what are the operational criteria that you've 
established?
    General Obering. Sir, we didn't establish them, the 
Director of Operational Assessment Evaluation established them. 
And that--there's--as I recall, there's about seven or eight 
criteria that--that they have outlined. We include that in our 
integrated master test plan. And in fact, I think in the last 
DOT report it annotated what those were and what the track 
record was against the various interceptors.
    Mr. Hodes. Since I don't have that here----
    General Obering. I'll provide you a copy.
    Mr. Hodes. That would be--that would be great.
    For my purposes today if I boiled this down to sort of a 
layman's question, how good is the GMD system supposed to be? 
In percentage terms, how good is it today and how good is it 
expected to be and when?
    General Obering. I can't give you a percentage because, 
again, of the classification. But I will tell you this, it was 
good enough that when the North Koreans stacked their tapered 
on to it in the summer of 2006, the President was relying on 
this as opposed to taking the advice of some senior, former 
senior officials to preemptively strike that site. And so 
that's what I mean by previous testimony about being a 
stabilizing factor in crises.
    We believe that the capability of the system is very high 
against the threats that we are designed against. That will 
improve over time as we get more and powerful, and more capable 
centers, and algorithms into our system, that will only 
increase, but it is very high today.
    Mr. Hodes. Can you quantify the effectiveness of the 
currently employed GMD system in the event of an actual attack?
    General Obering. Yes, sir, we can. And we can do that in a 
classified document.
    Mr. Hodes. And is it your testimony that if the additions 
you proposed to the GMD system is funded by the Congress that 
quantitative effectiveness would increase?
    General Obering. Yes, sir. And in fact, most of those have 
already been funded by the Congress, and we're in the process 
of completing those.
    Mr. Hodes. And this information you say would need to be 
done in a classified section?
    General Obering. Yes, sir, to give you the specific data.
    Mr. Hodes. Thank you. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Hodes.
    General, going back to our comments earlier about there 
being some clarity issues here. I want to get your best 
assessment of the current effectiveness of the program. In July 
2006 North Korea tested the Taepodong-2 missile. Two days after 
that test, President Bush was being interviewed by Larry King, 
in part on the capability of the missile defense system. And 
the President stated, ``If it headed to the United States, 
we've got a missile defense system that will defend our 
country.''
    A year and a half later, the Missile Defense Agency's own 
fine print in the fiscal year 2008 budget estimate stated, 
``This initial capability is not sufficient to protect the 
United States from the extant and anticipated rogue nation 
threat.''
    Can you describe for me the discrepancy in those two 
statements?
    General Obering. Oh, well, first of all the flight, the 
flight of the Taepodong-2 could have been one missile. And that 
was based on the number of interceptors that we had deployed at 
the time. So it is probably, in terms of the number of rates of 
missiles and where we were on the deployment of interceptors. 
And as I stated earlier today, we have two dozen that have been 
placed.
    Mr. Tierney. I guess the discrepancy is that in July 6, 
2006, the President was saying, if headed to the United States 
we have a missile defense system that will defend our country. 
And in a fiscal 2008 budget estimate, you're saying this 
initial capability is not sufficient to protect the United 
States from the extant and anticipated rogue nation threat. So 
have we gone backward or----
    General Obering. No, sir. Again, it is in term--remember 
rate size and the number of missiles that could be launched, 
but I will have to get you an answer for the record.
    Mr. Tierney. I hope so. Because so far we haven't gotten 
the answer to that.
    General Obering. I don't know what you're referring to when 
you're--you are talking----
    Mr. Tierney. I'll give it to you again, on July 6, 2006, 
the President----
    General Obering. No, sir, I understand that part. The 
other----
    Mr. Tierney. The Agency's own fiscal year 2009 budget 
estimate. ``This initial capability is not sufficient to 
protect the United States from the extant in anticipated rogue 
nation threat.''
    General Obering. I'll have to get back to you, because 
obviously there is a matter of degree probably in terms of the 
number of missiles that we would think of all ranges that could 
be deployed by North Korea and Iran. And----
    Mr. Tierney. We're talking about ones that reach the United 
States, that's the specific one that the President----
    General Obering. OK, I'll have to get back to you on that.
    Mr. Tierney. We had testimony from a Congressional Research 
Services expert on this, of course, only five countries to date 
have successfully developed and deployed the operational 
nuclear round ICBMs. And the fact that more nations have not 
done this is perhaps witnessed in part to the extraordinary 
technical effort it took. He noted that you need sophisticated 
propulsion system, a completely self-contained guidance system 
that's immune to jamming. A miniaturized and hardened nuclear 
bomb, a reentry vehicle that can survive a field of ionized 
plasma, and the management capacity to integrate and test all 
these systems together. And he went on to talk about how many 
tests would have to be done and how visible and obvious it 
would be.
    So it would seem, going back to this point that a few 
balloons that roughly match a warhead size is not something 
that would be in the capacity of a country that could do all of 
that to get a missile up there, that's why we keep going back 
to that countermeasure issue.
    General Obering. Sir, could I address that?
    Mr. Tierney. Sure, yeah, sure.
    General Obering. There are aspects again that I can't go 
into in this open session. But what I can say is there are a 
lot of assumptions that were just stated that do not come from 
concrete hard evidence. I just said that we flew against 
countermeasures, in our--of use countermeasures in our flight 
test program eight times. I can tell you that's not very easy. 
It's not as easy as the analyst is assuming it is, especially 
to get the effects you want to get in terms of that test 
program.
    Mr. Tierney. I'm not sure the analyst is assuming it is 
easy at all. What he's talking about is how difficult it is to 
put a missile up. Are you are telling us it is more difficult 
to put a decoy or a countermeasure up than it is to----
    General Obering. When you add that complexity to it, it 
makes it even more difficult. And there's also payload 
penalties that you pay, trajectory penalties that you pay from 
that. So I agree it's not easy to do and there are a handful of 
countries that can do that. However we see that handful 
growing. And we see countries that we have not paid attention 
to in the past and we think we need to today.
    Mr. Tierney. But you see their capacity growing in terms of 
being able to have missile technology, but you don't seem to 
see the capacity growing in terms of having decoys and 
countermeasures. I think the point he makes is if you are 
sophisticated enough to go over all of those burdens and 
hurdles to make a missile program, then you are probably 
sophisticated enough to have some pretty good decoys and 
countermeasures.
    General Obering. So I can give you an answer directly as to 
why I don't think that's true necessarily. But I will also tell 
you that we are growing our ability to deal with those 
countermeasures as well.
    Mr. Tierney. I think we just want to wrap up a few other 
things. Mr. Hodes has an area he wants to go into. I just 
wanted to address a couple of things that were in your written 
testimony that we haven't really talked about today. One of 
those is the Multiple Kill Vehicle program that you were 
talking about. Now we've had testimony about how difficult it 
is for a single target with a single inceptor to hit, and 
that's been done. What we're talking about here with the 
Multiple Kill Vehicle is sort of hitting a lot of targets with 
a lot of bullets to speak the vernacular on that all at once. 
The difficulty, I guess, would be that each smaller 
interceptor, each one of those multiple interceptors has to 
carry sensors, guidance, propulsion systems, all that added 
weight; is that correct?
    General Obering. Yes, sir.
    Mr. Tierney. So won't that limit the number of--the number 
of kill vehicles that you have on a particular system?
    General Obering. The limit there will be primarily on the 
mass that will be required and the volume that you have to be 
able to launch those within your interceptor shroud volume. But 
the numbers that we can achieve in that program are what we 
believe to be very effective.
    Mr. Tierney. And you don't believe it would be overwhelmed 
by somebody who is anticipating that this might be the case 
that you have these Multiple Kill Vehicles.
    General Obering. We believe that through a common--again, 
we keep wanting to isolate on a particular aspect of the 
program and then say, well, that's not going to work. And you 
can't do that. You have to look at the entire program. So by 
the time an attacker has flown through our the layers. By the 
time that he's gone through the mid course discrimination that 
we would be able to accomplish and boiled that down to the 
credible objects where we ignore those things that are not 
credible and then use those Multiple Kill Vehicles to go after 
that, yes, sir, we did believe that would be effective.
    Mr. Tierney. How costly is that going to be?
    General Obering. We are just into that program in terms of 
what that would be. And we are doing the cost estimates now. 
One of the things that we do that we actually did at the 
recommendation--well, it wasn't a recommendation, but it was a 
recommendation made in other programs is we picked up the idea 
of knowledge points.
    So we try to drive down the risk before we build a major 
acquisition program to go off and to be able to accomplish 
whatever the program is, Multiple Kill Vehicle or Kinetic 
Energy Receptor or whatever. It is a technique that we believe 
it is prudent to try to make sure we make these as least as 
expensive as we can.
    So I can't answer your question until we've outlined our 
ability to detail the knowledge points and then get a good idea 
of what we're going to do and how we're going to go about 
accomplishing those. And we're at the beginning of that journey 
of the program today.
    Mr. Tierney. I would hope that it would take some--there 
was at one point of time, standards with this program back in 
the 1980's, when Nimsky was there, and having it be less costly 
to build your defense than it would be for somebody to build 
something that could overwhelm your defense. I hope that's 
going to be a consideration going forward.
    General Obering. We always want to try to make the attacker 
have the cost imposing penalties as opposed to us, that's true.
    Mr. Tierney. On the Airborne Laser, if we could just touch 
on that for a second because it is also something that you put 
in your testimony. There was testimony at an earlier hearing 
that we had here that the Airborne Laser an enemy might use 
white paint as a countermeasure. And there was some objection, 
apparently by your public relations, public affairs guys seem 
to be pretty active. He was talking about the United States--he 
sort of mocked it, he said, well, if the United States will 
spend more than $4 billion on a weapon system that could be 
defeated by a coat of paint, it might make a good sitcom, but 
has no basis in fact. That was his clever response.
    The issue is, though, that the testimony that was had here 
it is about $8 billion, not $4 billion that's anticipated. But 
also, it's not just reflective white paint, that it could be 
dark colors that absorb almost all the laser energy and allow 
only 10 percent to be reflected.
    The white paint, I guess, would be pretty durable on that, 
but also another countermeasure would require more laser power 
and those things could be added as well. If it rotated, it 
would be almost no effort and that would be a problem for us. 
So what kind of testing has been done against the darker 
objects or lighter objects. One expert calls it the ablative 
coating that burned off the outside of the enemy missile. What 
about all of those things in your laser program.
    General Obering. We have evaluated literally hundreds of 
coatings and ablatives and paint as part of the program. And we 
have tested using laser facilities against those.
    Mr. Tierney. When you say testing, what kind of testing are 
you talking about?
    General Obering. We are talking about very small scale 
testing, and we're in the process of doing much larger scale 
testing.
    Mr. Tierney. Now the ABL aircraft is anticipated it will 
fly at a reasonably safe distance----
    General Obering. Yes, sir.
    Mr. Tierney [continuing]. From that.
    And you are going to some issues as well with keeping the 
laser focused over that time--that area?
    General Obering. No, sir. We have actually demonstrated the 
fact that we can do that.
    And by the way, that is a technique that we've been using 
for many years, so----
    Mr. Tierney. So the atmosphere doesn't weaken the beam?
    General Obering. Yes, sir. Let me explain how it works. We 
actually have three lasers that will be on the aircraft and 
we've flown. We have fired the high energy megawatt class over 
70 times in a 747 fuselage at Edwards. That--and that, by the 
way, required almost simultaneous ignition of the laser 
modules, synchronizations that many of our so called critics 
said we could never do. Well, we did that. And we achieved the 
full duration and operational power in that laser.
    We then took in parallel--we took the aircraft and we 
heavily modified that to obviously fire the laser. But there 
are two other lasers on the aircraft. There is a tracking laser 
and atmospheric compensation laser. This last year, we flew the 
aircraft with those two lasers along with a surrogate of the 
high energy. And we demonstrated all the steps that we need to 
do the shootdown.
    What that entails is being able to track the end point on 
the missile. In this case it was a simulated target that we 
used both the Big Crow aircraft as well as a boosting 
accelerating F-16 for that tracking. We then used the 
atmospheric compensation laser to go out and measure the 
distortion that you're talking about in the atmosphere, and 
feed that information back and we deform the mirrors onboard 
the aircraft. And then we fire the high energy in a diffused 
state. And then it uses the atmosphere just like your glasses 
to focus the beam on the target. And we demonstrated all of the 
technical steps to go do that.
    Mr. Tierney. And when you say demonstrated that, you did it 
in a real life----
    General Obering. In flight testing.
    Mr. Tierney. In the right atmosphere and the whole thing?
    General Obering. Yes, sir. And then we're going to--we have 
the aircraft back on the ground, we've had it back on the 
ground for several months. We now install the high energy laser 
modules on the flying aircraft. We are in the process of 
cleaning up the installation. We should be back in the air by 
the first part of next year. And then we intend to shoot down a 
boosting missile in midyear.
    Mr. Tierney. And if the missile's rotating or is shiny or 
reflects off or sloughs off some of the laser energy, that 
doesn't create a problem.
    General Obering. That's all part of the test program that 
we have data on, sir.
    Mr. Tierney. So we tested, all that happening so far or are 
you going to test that?
    General Obering. We have tested a major portion of that and 
others. We have done the analysis, but we feel like we're on 
the right track.
    Mr. Tierney. The Boeing 747 is it a potential that may not 
be big enough?
    General Obering. Oh, it is big enough. In fact, we would 
most likely use a 747 8F version for the next one. But we are 
going to take it in a transition period. We'll collect up all 
the information that we've learned, and we will apply that to 
ensure that we can make an affordable capability.
    Mr. Tierney. So it is too premature to ask you how long the 
laser has to stay focused on the target to actually kill it, or 
if it is rotating in flight what happens, that's all the 
testing?
    General Obering. What I can tell you is the time it takes 
to do that is certainly within the operational--it is 
operational realistic, I'll put it that way.
    Mr. Tierney. From a distance.
    General Obering. Yes, sir.
    Mr. Tierney. So there's no pros--these plays are up there, 
if we're going to have this effect, are they going to be over 
North Korea or are they going to be flying around there 24/7, 
right?
    General Obering. It would be the concept of operations. If 
you are familiar with AWACs or Joint STARS, it would be very 
similar. Otherwise, you'd get indication and warnings. You 
would deploy the aircraft, it would be a 24/7 orbit that would 
be obviously you'd have to swap aircraft as part of that. But 
we do that, as a matter of routine, at AWACs and Joint STARS.
    Mr. Tierney. So how many of these particular ABL systems do 
think are going to have to have filled to keep something up 
there 24/7?
    General Obering. I think it's--the estimates--the initial 
estimates were two and a half to three-aircraft orbit. But 
again, once we do the initial shootdown we continue a very a--
what I call a continuous flight testing program. But then we're 
going to go in and we're going to take this data and understand 
what it is we can do to make this operational and operationally 
affordable.
    Mr. Tierney. What are the prospects that one of these ABLs 
is going to exhaust the chemicals and have to go back and 
replenish.
    General Obering. It is a matter of routine. If it shot out 
its load, but again, it is the only--it's the only intercept, 
if you'd like a capability we have in which we can shoot down 
multiple missile with a single component.
    Mr. Tierney. It looks to be another fairly complex and 
expensive aspect of this. You estimate about $5.1 billion on 
the first aircraft through 2009, but now you think you need how 
many aircraft to make this operation----
    General Obering. I can't tell you until we go through this 
operational affordability. We are going to go through a 
redesign transition not unlike what we did with the THAAD, sir. 
It will be a revolutionary capability, not just a complex one.
    Mr. Tierney. The information that was provided to the 
Congressional Budget Office led them to estimate $1.5 billion 
per production aircraft. The Air Force Air Combat Command 
proposed that the Air Force would buy seven production 
aircraft.
    General Obering. Right.
    Mr. Tierney. But the Pentagon didn't support it.
    General Obering. Sir, that's because it was premature to do 
that, not until we get the information I just talked about.
    Mr. Tierney. The plan now is that the MDA will build the 
first two prototypes before Boeing goes into production. Is 
that still on track?
    General Obering. We do not have money funded right now 
against a second aircraft tail member.
    Mr. Tierney. The ABL program office has estimated that each 
aircraft will take a couple years to build.
    General Obering. Yes, sir.
    Mr. Tierney. Seven aircraft at about $1.5 billion would be 
about $10.5 billion, probably the price is escalating on that. 
If it takes 2 years to build each one of these, it will take 
the Air Force 14 years to get the first fleet if they had 
budgeted one per year.
    General Obering. Again, that's data based on existing 
configurations, not necessarily what we would come out of the 
transition program with.
    Mr. Tierney. But if that holds true, you are looking really 
until 2025 before this thing is up and operational. That means 
that it meets all the tests and it is actually doable on that 
basis. OK.
    Mr. Hodes, do you have any further questions?
    Mr. Hodes. I wanted just to followup a little bit sort of 
the discussion we were having about the assessment of the 
effectiveness of the system, understanding your reluctance to 
tell us in open session a quantitative assessment, so to speak. 
And I would point out that the head of the Missile Defense 
Advocacy Alliance has stated, I believe we have a ballistic 
missile defense system that is at least 90 percent effective 
against limited attack. When we're talking about a single 
attack from a single missile, we're probably higher than 95 
percent because we can do multiple shots, and we have increased 
our efficiencies and capabilities.
    General, do you agree with that assessment of our current 
effectiveness?
    General Obering. Sir, again, I will be happy to give those 
numbers to you in private in terms of what they actually are.
    Mr. Hodes. Well, all I'm asking you now in this session as 
to whether you agree or disagree with the number that has 
already been put out there by somebody else.
    General Obering. Sir, but if I validate or not validate 
that number, that's the same thing as releasing classified 
information, and I will not do that.
    Mr. Hodes. Your predecessor as head of the MDA was asked to 
comment on statements made by Pete Aldridge who was U.S. Under 
Secretary of Defense for Acquisition Technology and Logistics 
who assessed the effectiveness of the deployed GMD system 
before the Senate and ended up saying, as of today, the 
projected effectiveness would be in the 90 percent range. Am I 
correct that you don't want to voice an opinion as to whether 
you agree with that assessment?
    General Obering. No, sir.
    Mr. Hodes. He also said--your predecessor as head of the 
MDA, was asked about the Aldridge statement. And he said, if 
you assume a certain level of success for each interceptor 
missile, which doesn't have to be very high, not greater than 
50 percent, and if you did a math probability calculation and 
you used six of those interceptor missiles to attack a single 
incoming warhead, Secretary Aldridge was very correct on a pure 
math basis; Aldridge was correct.
    So your predecessor, as head of the MDA, apparently did his 
math calculations and agreed with Mr. Aldridge's assessment of 
a 90 percent effectiveness.
    My question to you is, has the MDA ever conducted a GMD 
flight intercept test where you have demonstrated the 
capability in flight, actual flight intercept test, to bring 
down an enemy missile by firing six interceptors?
    General Obering. By firing, I'm sorry, how many?
    Mr. Hodes. Six interceptors, as was suggested by your 
predecessor as head of the MDA.
    General Obering. Six interceptors?
    Mr. Hodes. Correct. Have you ever conducted a flight test--
--
    General Obering. I don't understand where you are getting 
the number six from, sir. Could you help me there?
    Mr. Hodes. Yes. Let me go back briefly. Your predecessor as 
head of the MDA was asked about Mr. Aldridge's previous 
statement about 90 percent effectiveness. In his answer, he did 
some calculating and said, if you did a math probability 
calculation and if you use six of those interceptor missiles to 
attack a single incoming warhead, Secretary Aldridge was very 
correct.
    In other words, your predecessor as head of the MDA was 
commenting on the 90 percent effectiveness testimony that had 
been given. And apparently under--using his calculations--and 
he knows a lot more about this, certainly, than I do--was 
saying, yeah, it's 90 percent effective if you use six 
interceptor missiles to attack a single incoming warhead.
    So my question to you is, has the MDA ever conducted a GMD 
flight intercept test where you've demonstrated, actually 
demonstrated, the capability to bring down a single incoming 
enemy warhead by firing six interceptors----
    General Obering. In a flight test, no, sir.
    Mr. Hodes. OK. Have you done it in simulation?
    General Obering. I would have to go check that. I know that 
we do, in our simulations, we do fire at times multiple 
interceptors against single targets.
    Now if you want me to help you with the math a little bit, 
if you have an interceptor that is 70 percent effective on a 
single shot or 80 percent effective on a single shot and you 
fire two, you are now at a 91 or 96 percent effectiveness for 
the overall engagement. So that's just a simple probability of 
statistics in terms of the performance. But that does not 
relate to what I would call a realistic performance because I 
won't get into that in the open session.
    Mr. Hodes. OK. Thank you, Mr. Chairman.
    Mr. Tierney. Thanks, Mr. Hodes.
    General, I want to try to wrap this up for you. You've been 
good to spend all this time with us. We appreciate it. You 
answered Mr. Hodes's question about operational criteria 
earlier. But I didn't hear you say whether or not that existed 
in writing somewhere.
    General Obering. Oh, yes, sir. It does.
    Mr. Tierney. What would that publication be?
    General Obering. Pardon me?
    Mr. Tierney. What would that publication be termed?
    General Obering. As I recall, it's in the DOT&E report for 
this year. And I believe, if I am not mistaken, it is also in 
our integrated master test plan, but we can provide that 
documentation for the committee.
    Mr. Tierney. Thank you. I appreciate that. Does it indicate 
how good the system is supposed to be, whether its 
effectiveness is supposed to be 1 percent, 10 percent 90 
percent?
    General Obering. It talks about the characteristics--I mean 
the criteria that would need to be achieved in the flight test 
to be operationally realistic.
    Mr. Tierney. Does it talk about percentage of 
effectiveness?
    General Obering. I don't remember it doing that. But again, 
that is normally derived from our testing.
    Mr. Tierney. Does it indicate how many interceptors should 
be required to defeat a single target?
    General Obering. No, sir. That is what we call shot 
doctoring, and that is derived from the specifications and the 
performance of the specifications that have been demonstrated 
in our flight test and our ground test.
    Mr. Tierney. The so-called Clinton era tests, that was a 
four-parter: One was whether the test, you know, material on 
whether the challenges are materializing. The other is a status 
of technology based on the initial series of flight tests and 
proposed systems' operational effectiveness. The third is 
whether the system is affordable. And the last is implication 
that going forward with the national missile defense deployment 
would hold for the overall strategic environment and our arms 
control objectives. Are those four criteria incorporated in any 
way in the current objective criteria?
    General Obering. You are talking about in terms of 
deployment of the overall system. No, sir. We're well beyond 
that. We're well beyond that stage in terms of deployment.
    Mr. Tierney. And on Mr. Nitze's criteria, the three 
systems. That he had back in the Reagan years: that the system 
should be effective; that it be able to survive against direct 
attack; and that it be cost effective at the margin. So I 
mentioned earlier about it being less costly to increase your 
defense than it is for the opponent to increase their offense 
against it. Are those incorporated in any way in the current--
--
    General Obering. Again, that's for deployment, which we've 
already achieved.
    Mr. Tierney. All right. So the operational effectiveness 
for deployment is different than operational effectiveness for 
another reason?
    General Obering. Yes, sir. It is. Again, in the environment 
and in the world we live in, when you have a mission area in 
which you are totally vulnerable and you have no defense, that 
is a different calculation than you may do in a cold war era 
where typically you are replacing your weapons system in the 
field with one that's supposed to be better. And so you have a 
different calculation.
    What I can tell you is the calculation that the 
administration went through on deployment was, did we have an 
emerging threat? The answer was yes, and what we saw happening 
in North Korea and Iran, that was of concern. Were they making 
hostile statements? The answer was yes. Did we have a 
technological capability to achieve an intercept? The answer 
was yes. And we had demonstrated that in our flight testing 
with the prototypes of the interceptors that we deployed.
    Mr. Tierney. Without decoys or anything of that nature?
    General Obering. That was using decoys in the flight test.
    Mr. Tierney. Were those the ones I was talking about 
earlier?
    General Obering. Yes. And did we fly an operational 
configuration of the booster? The answer was, yes, we had done 
that. And was it affordable? And the determination by the 
administration and by the Congress, by the way, was, yes, it 
was.
    Now it goes back to the statement that Ms. McCollum made 
earlier about what is the relative cost not just to an 
adversary but more importantly to the innocent people that 
could be killed if you don't defend them as well as the damage 
that could be done to a single American city on the order of 
hundreds and hundreds of billions of dollars if you can't stop 
that missile, even one missile? So I think that was the 
calculation that went into the deployment.
    Mr. Tierney. And in that consideration, somewhere was the 
political consideration, I guess, about the implications of 
going forward with that kind of deployment and how that would 
effect the overall strategic environment----
    General Obering. Oh, sir, in fact, I think that's one of 
the strongest arguments for what we're doing.
    Mr. Tierney. You may think that, but that was a political 
consideration that was made.
    General Obering. Well, sir, I hope so because what we're 
trying to do is change the politics.
    Mr. Tierney. No, I understand your position on it. I'm 
just----
    General Obering. If I may----
    Mr. Tierney [continuing]. Makes a decision on that.
    General Obering. We've had tremendous proliferation of 
these weapons over the past several years. Access to them has 
gotten much greater.
    Mr. Tierney. You are talking--you are conflating again on 
me, General. You have two countries that you think may some day 
join the club of the existing five that have intercontinental 
ballistic missiles. All the rest you are talking about is short 
range and medium range.
    General Obering. Yes, sir. But that's part----
    Mr. Tierney. But it's not part of what we're talking about 
focussing on here, is the $64 billion being spent on an 
intercontinental ballistic defense system that has not had 
realistic operational tests yet under a number of conditions 
that we continue to procure on. We're buying things. We're 
putting them on the ground. And it's not been shown that it's 
going to work in that sense.
    Let me ask you, just to wrap it up here, suppose this 
administration's negotiations with North Korea have success. 
Suppose that they some day wake up and decide they want to talk 
to Iran, and they have success in those negotiations. What 
happens to the budget of the MDA at that point?
    General Obering. Well, sir, that's not--that's a 
hypothetical. I would say that would be up to the 
administration and the Congress at that point. I will say that 
historically you have always--always--been better off at being 
able to negotiate from the position of strength and not 
weakness. So if you are walking in on negotiations against an 
adversary in which you have a glaring vulnerability against 
missile attack and they have an capability to exploit that, you 
are not in a very good position. That's something that I think 
is also a part of the calculation as we go forward in the 
future.
    In addition, if you can assure me that is the only threat 
that we'll be facing in this century over the next 10, 15 
years, I'd be happy with that. But I don't know that we can do 
that.
    Mr. Tierney. Well, General, if you can assure me that we 
have an endless supply of money that we just want to keep 
putting on and on and on, I guess that would resolve 
everybody's issue on that.
    I thank you for your time and for your testimony here today 
and for your service to the country.
    General Obering. Thank you.
    Mr. Tierney. We'll take a brief recess before the next 
panel comes on. A couple of minutes.
    [Recess.]
    Mr. Tierney. OK. The subcommittee will now receive 
testimony from our second panel of witnesses.
    Philip E. Coyle III: Mr. Coyle is the senior advisor for 
the Center for Defense Information. As the former Assistant 
Secretary of Defense, Mr. Coyle was the longest-serving 
director of the operational tests and evaluation in a 20-year 
history of that defense office. He oversaw the tests and 
evaluation of over 200 major defense acquisition systems and 
reported to the Secretary of Defense and to Congress on the 
adequacy and results of Defense Department testing programs. He 
is the associate director emeritus of the Lawrence Livermore 
National Laboratory where he started in 1959. He was appointed 
by President George W. Bush to serve on the 2005 Defense Base 
Realignment and Closure Commission. Mr. Coyle is an expert on 
military research, development, and testing on operational 
military matters, and on national security policy and defense 
spending, including defense acquisition reform and defense 
procurement. He has an extensive background in missile defense, 
in military space systems and nuclear weapons.
    The Honorable Henry F. Cooper: Ambassador Cooper is 
currently the chairman of the High Frontier Organization. He 
served as the first civilian director of the Strategic Defense 
Initiative [SDI], from 1990 to 1993. President Reagan appointed 
Ambassador Cooper as deputy and then chief U.S. negotiator at 
the Geneva Defense and Space talks with the former Soviet Union 
from 1985 to 1989. Ambassador Cooper is also currently chairman 
emeritus of Applied Research Associates, a visiting fellow at 
the Heritage Foundation and a private consultant.
    Joseph Cirincione: Mr. Cirincione is president of 
Ploughshares Fund. He was most recently vice president for the 
National Security and International Policy at the Center for 
American Progress. He is the author of an article in the most 
recent issue of Foreign Policy entitled, ``The Incredible 
Shrinking Missile Threat,'' and the recent book ``Bomb Scare: 
The History and Future of Nuclear Weapons.'' He also teaches at 
Georgetown University and was some years ago a staffer on the 
predecessor of this subcommittee as well as on the House Armed 
Services Committee.
    We want to thank all of you for being with us today. 
Obviously your experience, your knowledge of the topic's going 
to help us address the questions that were raised in the 
earlier hearing and generally. As you all know from previous 
experience, it's our policy to swear in witnesses. So if you 
please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Tierney. Thank you. The record will please reflect all 
of the witnesses answered in the affirmative.
    You know from past experience as well that your full 
written statements will be put in the record by unanimous 
consent.
    We ask you that you try to keep your oral statements to 5 
minutes in duration or as close thereto as you can so there 
will be plenty of time for questions. We will be a little bit 
limited. We know people's sensitivity of the time, and we want 
to be able to have some questions for the panel and get you 
folks out of here at a decent hour as well.
    So if we might, Mr. Coyle we'd benefit from your testimony, 
if you would.

 STATEMENTS OF PHILIP E. COYLE III, SENIOR ADVISOR, CENTER FOR 
  DEFENSE INFORMATION, ASSOCIATE DIRECTOR EMERITUS, LAWRENCE 
    LIVERMORE NATIONAL LABORATORY; HENRY F. COOPER, Ph.D., 
  CHAIRMAN, HIGH FRONTIER; AND JOSEPH CIRINCIONE, PRESIDENT, 
                       PLOUGHSHARES FUND

                STATEMENT OF PHILIP E. COYLE III

    Mr. Coyle. Thanks Mr. Chairman.
    My opening remarks are quite brief. Chairman Tierney, 
Representative Shays, distinguished members of the committee, I 
very much appreciate the opportunity to appear before you again 
to support your examination of Department of Defense programs 
and missile defense.
    In my testimony 2 weeks ago, I raised a number of issues 
that the Congress should examine. They are: the limited and 
inadequate technical and operational performance of the ground-
based missile defense [GMD] system, and the lack of operational 
criteria by which the Congress can judge success; inconsistent 
and inaccurate information from the Pentagon with respect to 
system performance and the threat; the lack of demonstrated 
performance of the GMD system against realistic threats 
involving decoys and countermeasures as well as in common 
operational environments; the cost, which you've already spent 
some time on in this hearing; the vulnerability of the GMD 
system to direct attack; the successes of U.S. diplomacy, which 
have been our most effective missile defense; and, finally, the 
ways in which missile defenses can undermine America's arms 
control and nonproliferation objectives.
    In my formal testimony today, I expand on my earlier 
comments regarding the GMD program, also on the proposed U.S. 
missile defenses proposed for Europe and on the airborne laser 
and add new comments regarding the Multiple Kill Vehicle 
program which you had brought up earlier this morning.
    Today I only touch briefly on the Navy's Aegis program and 
do not discuss at all the THAAD program, the PATRIOT PAC-3, or 
the PATRIOT/MEADS Combined Aggregate Program, which I hope will 
be topics for future hearings and increased oversight and 
review by the U.S. Congress.
    The DOD Missile Defense Agency programs need to be re-
established as bona fide R&D programs, which they are presently 
purported to be but are not. The Congress and the American 
taxpayer are being misled about the capabilities of these 
programs both in terms of their effectiveness to provide 
dependable defenses and in terms of their readiness for 
procurement.
    The MDA programs have become large program--large 
procurement programs masquerading as R&D programs with hundreds 
of new interceptors, not to mention scores of other systems, 
subsystems and support facilities proposed to be bought between 
now and 2013.
    Through these large procurements, the American taxpayer is 
being misled that these systems defend the United States when 
they do not. And our friends and allies in Europe are also 
being misled that the proposed U.S. missile defenses would 
defend Europe as well.
    This is all the more troublesome as these programs have no 
demonstrated effectiveness against realistic threats and under 
realistic operational conditions. This applies to the GMD 
program in Alaska and California, to the new missile defense 
system proposed for Europe, to the Multiple Kill Vehicle 
program, and especially to the airborne laser program.
    Several other programs also require increased oversight and 
review by the Congress, including the Aegis BMD program, the 
THAAD program, and PATRIOT PAC-3, and PATRIOT/MEADS programs.
    Mr. Chairman, this concludes my opening remarks. Thank you 
very much for your attention.
    [The prepared statement of Mr. Coyle follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, Dr. Coyle.
    Dr. Cooper.

              STATEMENT OF HENRY F. COOPER, Ph.D.

    Mr. Cooper. Thank you, Mr. Chairman. Chairman Tierney, 
distinguished Members--oh, I'm sorry.
    Chairman Tierney, Representative Shays, distinguished 
Members, I appreciate the opportunity to appear before you to 
discuss our missile defense programs.
    As SDI director in the 1990 to 1993 time period, I 
redirected SDI away from defending the U.S. homeland against a 
massive attack by thousands of nuclear re-entry vehicles to 
protecting the United States and our overseas troops, allies 
and friends against a limited ballistic missile attack. And I 
advocated that we work with Russia to build such a global 
system.
    I believe a global defense still should be the goal of our 
missile defense programs. And I now would include among the 
threats of concern terrorists who might launch SCUDs or cruise 
missiles from ships off our coast.
    As SDI director, I was privy to all the classified 
information related to dealing with offensive countermeasures, 
against all potential missile defense system concepts, at least 
of that time. And I concluded then and remain confident today 
that we can build a layered defense that would be effective and 
affordable.
    My prepared testimony summarizes the nature of the 
complementary measure-countermeasure tension between the boost, 
midcourse, and terminal phases of the ballistic missile's 
flight. Taken together, a mature layered defense against 
ballistic missiles in all their phases of flight can achieve 
many intercept attempts and frustrate attempts of the offense 
to focus on one or the another of these phases of flight. For 
example, boost-phased defenses, which work while the hot slowly 
moving rocket is very vulnerable, can destroy a threatening 
rocket before it can dispense its warheads and associated 
decoys, defeating such midcourse countermeasures. If the 
offense develops a higher-acceleration booster to defeat the 
boost-phase defense, it will pay a weight penalty that reduces 
the midcourse countermeasures suite, thereby reducing the 
challenge to a midcourse defense. Furthermore, a terminal high-
endo-atmospheric defense can defeat the midcourse 
countermeasures as re-entry strips away light decoys and chaff. 
If a maneuvering re-entry vehicle is designed to defeat high-
endo-atmospheric defense interceptor, the weight penalty will 
also degrade the midcourse countermeasures suite.
    My prepared testimony discusses the legacy of the ABM 
Treaty in frustrating the development of such a layered defense 
which has left the current program focused on the most 
difficult midcourse defense problem, largely to the exclusion 
of the other two phases. This is not surprising because the 
purpose of that treaty was to keep the United States and the 
Soviet Union vulnerable to ballistic missile attack, each with 
their single ground-based sight. Still, our original program on 
my watch included a follow-on combined endo-exo-atmospheric 
interceptor, which we called E2I, to strip away lightweight 
decoys that might get by an exo-atmospheric-only defense.
    Development of sea-based, air-based, and mobile land-based 
defenses had to be limited to a theater missile defense role. A 
legacy of these constraints is that the sea-based defenses 
today continue to be restricted to a theater defense role, even 
though they have an inherent capability against long-ranged 
ICBMs, as shown by numerous theoretical studies over the past 
decade and to some degree demonstrated by the recent adaptation 
of the Aegis standard missile to shoot down a satellite 
traveling faster than an ICBM. Space-based defenses could not 
be limited to a theater missile defense role. Still, space-
based sensors were permitted and needed to support ground-based 
defenses but research and development on space-based 
interceptors had--I'm sorry--had to be limited by technology-
to-technology demonstrations for which Congress appropriated in 
1993 some $300 million before the Clinton administration ended 
research and development on what I believe was the best product 
of the SDI years and the only one with the prospect of meeting 
the so-called Nitze criteria, to which you referred earlier, 
that effective defenses should be survivable against direct 
attack and cost effective at the margin against offensive 
countermeasures.
    Thus ended the technology pathway that could have long 
before now led to lightweight Kill Vehicles that, for example, 
would have enabled the Navy sea-based interceptors to reach 
substantially higher velocities, providing greater reach to 
defend much larger areas, including against ICBMs.
    Even though President Bush withdrew from the ABM Treaty in 
2002, the current missile defense program has not been 
redirected to reflect the basic lessons that I further 
elaborated in my prepared testimony. Instead, most of the 
resources have been placed against the 1993 scaled-back ground-
based defense program, albeit expanded to include mobile 
components previously prohibited by the ABM Treaty and with 
ground-based interceptors at other than the Grand Forks site 
permitted by that treaty.
    Given the 1999 congressionally mandated policy to deploy as 
soon as technologically possible an effective national missile 
defense system against limited attack, continuing debate should 
not be about whether to build a system and sustain it but 
rather about how. I believe a return to basics would include a 
reinvigorated technology development effort to assure viable 
missile defenses into the future, whether at the Missile 
Defense Agency, at DARPA, or in the services as their 
respective components of a global defense architecture matures.
    Increased funding for sea-based offenses to exploit fully 
their inherent flexibility of operating in international waters 
and to provide defensive options in all three phases of flight 
is an important objective. In many ways, the Navy's sea-based 
defenses are the closest to an operational global defense 
capability today, but they have been limited arbitrarily I 
believe to a theater defense role. A revival of efforts to 
exploit the obvious benefits of the space-based defense, 
beginning with the President's proposed test bed in space, is 
also I think a good idea.
    Finally, I want to emphasize the possibility that 
terrorists could purchase SCUDs or cruise missiles and use them 
to launch weapons of mass destruction at our coastal cities 
from ships off our coast. And even a single nuclear armed SCUD 
that detonates a nuclear weapon high above the United States 
killing no one directly could create an electromagnetic pulse 
that could produce lasting economic havoc throughout the United 
States. This is not a new threat, and it could circumvent the 
major expenditures now being made to prevent the smuggling of 
weapons of mass destruction into the United States, a subject, 
I might add, that I spend most of my time today worrying about. 
It can and I believe should be countered by outfitting the 
Aegis ships that normally operate in our ports and along our 
coasts so that they can shoot down these cruise and ballistic 
missiles.
    As one who lives along the East Coast, I strongly urge 
Congress to fund additional missile defense capabilities on our 
Aegis ships in the Atlantic. And I would note that by the end 
of this year, 18 will be in the Pacific; only 2 in the 
Atlantic. As an extension, I believe we should also have an 
East Coast test range to dedicate to their testing and help 
provide both a deterrent and a real defense against this 
threat.
    Thank you, Mr. Chairman, for permitting me to share my 
views on these issues.
    [The prepared statement of Mr. Cooper follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, sir.
    Mr. Cirincione, we would like to hear your testimony as 
well, please.

                 STATEMENT OF JOSEPH CIRINCIONE

    Mr. Cirincione. Mr. Chairman, members of the committee, 
thank you very much for bringing me back to talk about one of 
my favorite subjects, the antiballistic missile program.
    When I became a staff member of the House Armed Services 
Committee in January 1985, my very first assignment was 
oversight over the then Strategic Defense Initiative 
Organization programs. Since that time, I've seen a formidable 
line of directors and program managers testify before Congress 
over--of those almost 25 years. They have constantly warned of 
urgent and emerging threats and have consistently promised that 
there was a technological solution to these threats that, with 
just enough money and enough time and a few less restrictions, 
they could deliver.
    Over the 25 years, I've seen the threat diminish, actually 
drastically, which is fortunate because the programs that they 
promised have been chronically behind schedule, over budget and 
under performing. We do not now have and are not likely to have 
an effective defense against even a primitive intercontinental 
ballistic missile launched at the United States using the kinds 
of decoys and countermeasures that such a country would likely 
have.
    The claims that we have such a capability are simply false. 
General Obering was a very competent representative of the 
program before this committee, and I sympathize with the 
difficulty that members have in trying to get him to elaborate 
on some of the problems that the program might be having. In my 
25 years, I have never seen a program manager come before 
Congress and admit that they were having serious problems in 
the program or that they could do the mission with less money. 
If they did so, they would be fired, and another program 
manager would be brought up here.
    So you have of a dilemma. How do you, knowing what you 
know, believing what you believe, forge a consensus in the 
Congress and in the country over the path forward on ballistic 
missile defenses? I believe that--and I have elaborated in my 
testimony some methods that you should consider that have 
worked in the past to forge such a consensus.
    No. 1, I believe you should commission an independent 
assessment of the antiballistic missile technologies. In 1987, 
the study done by the American Physical Society forged such a 
consensus about the near-term value of directed-energy weapons. 
You may remember that to the Strategic Defense Initiative 
program began not with ground-based systems, which were 
explicitly rejected by proponents of ballistic missile defense, 
in favor of directed-energy weapons. We spent billions of 
dollars exploring the feasibility of these weapons. The deserts 
of America are littered with the carcasses of failed directed-
energy weapons programs; none of these systems worked.
    In 1987, the American Physical Society study said it would 
be two decades before we would know the feasibility of these 
systems. That helped redirect the program toward more promising 
near-term solutions. I believe a similar study by the American 
Physical Society, perhaps the National Academy of Sciences, the 
American Association for the Advancement of Sciences could 
provide--could be sort of a technological referee here that 
could help give the Congress an objective assessment of what's 
working and what's not.
    I have several other suggestions in mind. But I believe 
that in the long term--I'm sorry--in the near term, what the 
Congress and the next administration should do is disband the 
National Missile Defense Agency. Under various directors and 
under various organizational structures, this has proved to be 
a very ineffective development and procurement agency. I 
believe the way to settle some of the differences that we heard 
today in the first part of this hearing is to devolve these 
antimissile programs back to the services from whence they 
came. Let the Joint Chiefs and the commanders in the field 
wrestle with the--make a first approximation of the resources 
that should be allocated to antimissile defense versus the 
other defense priorities. I believe if you do so, then Congress 
will then get recommendations from the Defense Department, from 
the administration, that present a more complete and a more 
balanced representation than you will if you continue to have 
an agency who exists only to promote antimissile programs, an 
agency that now has a budget of some $10 billion a year. You've 
created a very formidable advocate for these programs. If 
you're going to try to get at the truth of what works and 
what's necessary, I think you have to take that advocate apart 
and bring--and allow the influence of the rest of the services 
into these decisions.
    As it is now, I think the Missile Defense Agency is a self-
perpetuating money machine. It exists to defend its budget, to 
defend its program. You're never going to get a balanced 
defense as long as this Missile Defense Agency exists the way 
it does.
    I'll conclude my opening remarks with that, sir.
    [The prepared statement of Mr. Cirincione follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you.
    I thank all three of you for so thoughtful remarks.
    Dr. Cooper, let me start with you because I heard from the 
other two gentlemen a little bit before.
    Do you ascribe to the notion that a country like Iran, if 
it had the capacity say 2015, 2020 to send one intercontinental 
ballistic missile here, would do so without minding the fact 
that they'd have retaliation against them?
    Mr. Cooper. You're going to accuse me of skirting the 
question, but----
    Mr. Tierney. I could do that now or after you've done it.
    Mr. Cooper. But I don't know how to predict such things, 
sir. And I'm very uncomfortable with the idea that we would be 
vulnerable to the likes of--I can't even say his name--
Ahmadinejad and his friends.
    Mr. Tierney. Let me phrase it this way then, do any of 
you--I know, again, I'm assuming the answers from some of the 
gentlemen from previous testimony. It seems to me Mr. 
Cirincione makes a reasonable argument when he says, look, 
maybe you ought to take this and devolve it back to the 
individual branches of the services here and let them deal with 
their components on that; otherwise we might run the risk here 
of just an endless bottomless pit of money. I mean, this 
program is already the most expensive program that we have, and 
I've not seen any indication that anybody's ever concerned 
about measuring how much money we spend on it versus what are 
the other threats and risks that we have, everything from 
homeland security all the way to terror abroad or conventional 
conflicts or whatever.
    Would you object to that notion, Dr. Cooper, of putting it 
back into the services so they could deal with the components 
and measure it against what other challenges they think are out 
there, where they want to spend their money?
    Mr. Cooper. I think the combination of SDI, which was 
mostly about research for the first 8 years or so and began to 
get seriously engaged in the idea of actually building 
something was a really good idea because, at the time, there 
was no way within the Department to integrate things.
    You know, when the first Gulf war came along and we saw the 
PATRIOT activities, I was the one who argued that we should 
fold in theater defenses into the Missile Defense Agency, then 
called SDI. And fortunately, in my judgment, Secretary Cheney 
went along with me. And that was to assure that our theater and 
strategic defenses were integrated together because of this 
vision of wanting a global defense.
    This is a long way of saying, I think there's an important 
function performed by centralizing the planning, the research 
and development, even to the stage of developing prototypes 
and, to some degree, the initial operating capabilities in the 
field, in this integrated way, at which time I think it is an 
appropriate thing to transition them back to the services. And 
I believe that's the general intention of the department.
    Mr. Tierney. Dr. Coyle, you've sat through, very patiently, 
the entire first panel on that for some time. I'd like to just 
know what your immediate observations are from that discussion.
    Mr. Coyle. Well, General Obering is an experienced and 
excellent witness, but I was surprised at how many statements, 
including new statements, he made that were certainly 
incomplete, misleading or even untrue. There were quite a few 
of them. I don't know quite where to begin. Perhaps it would be 
best if I provided that for the record. But I was----
    Mr. Tierney. Well, we'd greatly appreciate that. But if 
something comes to mind, that would be helpful as well.
    Mr. Coyle. I was surprised that he made a couple of 
statements that I think are, at best, misleading.
    Part of the problem is, when we talk about tests, General 
Obering, for example, said, we have flown countermeasures 
against our sensors in tests. He made that point two or three 
different times. But he's talking about sensor characterization 
tests, flight characterization tests, tests that didn't 
actually involve shooting down a target. So I don't deny that, 
indeed, they've tried to gather data about how their sensors 
would behave against these various countermeasures. But I think 
it's a little misleading to imply that they've got the matter 
in hand because of such tests when they don't actually involve 
shooting down the target. That's just one example.
    Mr. Tierney. Thank you. We would appreciate a great deal--I 
don't mean to be giving you homework or anything. But, on the 
other hand, we do I guess. But if you have the time and the 
patience to do that, I think we'd benefit from knowing your 
analysis of what he said and what we ought to further inquire 
so we could get to the bottom of some of these things.
    Ms. McCollum, if you don't mind, I will ask Mr. Cirincione 
the same question, and then we will come to you. I think I have 
passed my 5 minutes.
    Mr. Cirincione, please.
    Mr. Cirincione. A lot of this boils down to what your 
definition of test is. And the agency uses test when they refer 
to computer simulations, flight tests where they're putting 
objects up and observing them, or actual intercept tests. And 
they merge them all together. So when you ask them, but you've 
never done a test with a realistic countermeasure, he says, 
yes, we have. And what he means is, they put some realistic 
countermeasures up into space and they've imaged them to see 
what they look like. But he doesn't mean--but you may have 
drawn that conclusion, some might have, not you, Mr. Chairman--
that he meant that we'd actually done an intercept test, again 
with a realistic countermeasure. We have not. We have not.
    And I share Dr. Coyle's concern----
    Mr. Tierney. Are you sure it hasn't been done and 
classified on you?
    Mr. Cirincione. We have never done a realistic test against 
the kind of missile and the kinds of countermeasures we could 
expect from even an Iran or North Korea. And the reason we 
haven't done that is that, if we did, we would miss. It's not 
that we don't have the ability to hit a bullet with a bullet. 
We do. But we don't have the a ability to see that bullet when 
there are dozens of other phony bullets around it. And that's 
the problem. If you can't see it, you can't hit it.
    Mr. Tierney. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    Boy, I don't even know where to start. But let me thank you 
for talking about tests because as a former teacher, I can 
devise a test to measure what I want to measure. And so I think 
when you talk about having successful tests, you need to know 
what the standards were that you were trying to meet with that 
test.
    The computer modelling that people kept being referred to, 
can you gentlemen tell me--I'm not a computer expert, so if I 
say something, and I'm using the wrong terminology, correct me. 
Do they have their own supercomputer? Do they use cluster 
computers? Are they just using, you know, something kind of 
souped up off the shelf? What are they using to do their 
testing for their computer models? Anyone know?
    Mr. Coyle. Ms. McCollum, they use a variety of different 
kinds of approaches. Some of it's done on big computers. Some 
of it, with the amazing capacity of laptops these days, it 
could even be done on a laptop. Whether or not that simulates 
what would happen in real battle is another matter. But they 
use a variety of different kinds of computers. And with the 
kind of resources they have, I don't think access to big 
computers, supercomputers, is a problem for them. They also do 
what are called hardware-in-the-loop simulations where they 
take hardware in the laboratory and run it through small 
laboratory scale tests, for example. So those are a couple of 
ways that they do it.
    Ms. McCollum. OK.
    Mr. Cooper. May I add a point? The other point is that they 
do physics based modelling, first principle physics-based 
modelling. Just as the DOE laboratories are applying this 
approach to at least claim that they can do nuclear weapons 
design without testing. And so, for example, when General 
Obering showed you the picture up here of what they anticipated 
were they to hit the fuel tank on the satellite and then he 
showed you the picture of the actual data, there was a fair 
amount of detail in the two that compared--well, the modelling 
they did was physics-based modelling. And there is a growing 
confidence in our ability to do that. We fly airplanes today. I 
don't know that we've ever gotten to the point where we have 
actually put one in service without fully testing it. But once 
upon a time, we did lots of testing. Today we don't do as much 
testing because we believe these models.
    Ms. McCollum. OK. My time's going to probably going to run 
out. Have I got time? Go ahead.
    Mr. Cirincione. Just two quick points. I was on staff in 
the 1980's and 1990's when computer simulation started to 
becoming an increasingly large part of Department of Defense 
testing. And we tried to resist the effort to have computer 
simulations included as operational testing data for the 
obvious reason that, in a computer simulation, you can program 
in assumptions that the customer might not be aware of. So we 
were very concerned that computer simulations could be 
manipulated to give data that might not actually be realistic, 
and it would, as it got down the chain, it would be more and 
more difficult to understand what you were actually simulating 
and what the assumptions were. We lost that battle. So computer 
simulations are now completely integrated into not just 
developmental and research testing but operational testing. I 
personally find that very disturbing.
    Second, I don't even use the word ``test'' when I discuss 
what's going on with the antiballistic missile programs. You 
will notice in my testimony I don't use that word. I think 
these are demonstrations, that these are highly scripted 
demonstrations of a certain capability. Do they have value in 
understanding how far you are toward achieving your goals? Yes. 
Are they actual tests of our ability to intercept a target? No, 
I don't think they are.
    Ms. McCollum. If we're going to have another round, I'll 
wait and do that. But it looks like Mr. Cooper had something he 
wanted to add if you would be kind enough. Thank you.
    Mr. Cooper.
    Mr. Cooper. I just wanted to add a point of disagreement, I 
suppose, with my friend Joe here. And that is, he is making a 
universal statement, and that's not entirely an accurate thing 
it seems to me. I believe the Navy programs have done quite 
realistic operational testing in many of their experiments, if 
you want to use that term, including firing cruise missiles and 
ballistic missiles at the same time, and as General Obering 
spoke of, a couple of ballistic missiles at the same time where 
the crews of operational cruisers are actually the ones that 
are conducting the tests. They don't know when the rocket is 
going. They know they're going to be on a test range and 
there's a time window in which it is. But they actually come as 
close, I believe, as you can come to operational testing as a 
part of a development activity. Now, to be sure, they're not 
doing the midcourse countermeasures that you folk are 
interested in either. But that's not part of their design at 
this point.
    Mr. Cirincione. Let me quickly agree. I was talking about 
the midcourse intercept demonstrations. I agree that in the 
theater defenses, there's been more realistic testing.
    Mr. Tierney. Thank you.
    Mr. Shays, you're recognized.
    Mr. Shays. Thank you.
    Mr. Cirincione, my understanding is that you would end the 
program, just shut it down. Is that correct?
    Mr. Cirincione. Oh, no, sir.
    Mr. Shays. OK. Then what should my understanding be?
    Mr. Cirincione. I would end the agency. I think we need a 
better, more efficient procurement and research vehicle than 
we've had over the last 25 years.
    Mr. Shays. So, is your view that the missile defense 
program should continue, done differently, more slowly and so 
on?
    Mr. Cirincione. A refocused effort to concentrate on 
getting near-term capabilities into the field for our troops 
and allies faced with theater threats and do more focused 
research on long-term defensive capabilities before moving to a 
procurement and deployment program for those.
    Mr. Shays. I'm happy to ask the question. Because, Mr. 
Coyle, would yours be somewhat similar in position? Or how 
would it differ?
    Mr. Coyle. Mr. Shays, I support research and development on 
missile defense. I think it is expensive, but I think it's 
something that the United States can afford.
    What I don't support is deploying systems that have no 
demonstrated operational effectiveness.
    Mr. Shays. OK. I hear you. I want you to react to this. 
First off, I've always been--I had been very skeptical of the 
missile defense program. And I voted to continue it. But I said 
we shouldn't deploy until we have a system that works. But I 
remember during the first--well, with getting Iraq out of 
Kuwait and the SCUD missiles, there was some comfort that I had 
that there was a PATRIOT missile that somehow could maybe 
intercept a SCUD missile which was not all that accurate. But I 
thought, you know, psychologically it was good. And at times, 
it seemed to work. Do you think that a missile defense system 
is more apt to work on short-range, medium-range, or long-
range? And I'll ask all three of you. Which is the easier, and 
which is the more difficult? I'll start with you, Mr.----
    Mr. Cirincione. I believe we can develop effective and 
reliable defenses against short-range missiles, primarily 
because you do not have the countermeasure problem. You are 
intercepting these systems in the atmosphere where 
countermeasures cannot operate. This is still a difficult task, 
and historically we've had, again, exaggerations of our 
capability. Mr. Shays, you remember the claims that we had 
intercepted 41 out of 42 SCUDs. It was only after this 
committee did an investigation that those claims were 
considerably scaled down. The Government Accountability Office 
estimated we hit 4 out of 44. Some independent experts don't 
think we hit any. My personal estimate was two as a result of 
our investigation.
    Mr. Shays. But the point is, do you have a sense that----
    Mr. Cirincione. You could do this. You could improve the 
PATRIOT or improve the THAAD or develop a new system that would 
have a better shot at intercepting SCUDs.
    Mr. Shays. Would it get more difficult----
    Mr. Cirincione. As the range of the missile increases, the 
difficulty of intercepting it increases.
    Mr. Shays. Is that because of the decoy measures?
    Mr. Cirincione. It is because of the speed of the target 
and because of the countermeasures.
    Mr. Shays. Tell me how you would agree or disagree with 
what I just heard, Mr. Coyle.
    Mr. Coyle. Mr. Shays I was very interested in the question 
you asked General Obering this morning about PATRIOT. He said 
that--and I believe the context of your question was about PAC-
3 against SCUDs. PAC-3 is still untested in battle against 
SCUDs because Iraq didn't fire any. And so I didn't understand 
his answer. And I thought it was misleading because he said all 
of the missiles that Iraq fired at us were destroyed or shot 
down. And you can go through the news accounts of how many 
missiles were fired by Iraq each day, of which kind, and by our 
count, there's a couple hundred--excuse me, a couple dozen 
missiles that Iraq fired, not SCUDs but shorter-range missiles 
of other types, including cruise missiles that were not shot 
down by PATRIOT or PAC-3.
    Mr. Cooper. I think it's not quite as simple as it's been 
stated here. Countermeasures apply, as I tried to make the 
point in my testimony, in all of the phases of flight. The 
difficulty that we had in shooting down the SCUDs in the first 
Gulf war, for example, had to do with the fact that Saddam 
Hussein took three SCUDs and he welded two together out of this 
to get the extended range. When they went out of the Earth's 
atmosphere and they were in space for some considerable amount 
of time, they went like this and came down hind part first and 
they broke up. And the warhead corkscrewed into the Earth's 
atmosphere, pulling, I don't remember now, but multiple Gs, and 
the PATRIOT couldn't keep up with it. So simply because it's a 
short-range missile and it's going in the atmosphere, it 
doesn't guarantee you that you can deal with this problem. That 
was my point about, if you worked that problem, you make the 
countermeasures a problem easier outside the Earth's 
atmosphere.
    And now PAC-3, I believe, is an exo-atmospheric 
interceptor, is it not? It's hit the gill, I know, and it 
should have worked against the SCUD if it had been launched, 
but I don't know----
    Mr. Shays. Let me ask you one last question, Dr. Cooper. Do 
you agree that it is easier to deal with the short range versus 
the intermediate or the long range?
    Mr. Cooper. In principle, it is, yes. But I believe the 
technology is there to deal with all three. The countermeasures 
problem I believe is one you have to take into account. And I 
think it should be taken into account as a part of the design. 
To that degree, I'm inclined to side with Dr. Coyle. The 
reality is that, when you ask what is going on in the program 
today, you can't assume that you are starting with a clean 
sheet of paper.
    General Obering, you know, inherited a program that was in 
a given direction.
    Mr. Shays. I'll get you in the next--I mean, I'll pursue 
this in the next round.
    Mr. Tierney. Thank you.
    Dr. Cooper, how much would you advise Congress should spend 
over the next 20 years in missile defense?
    Mr. Cirincione. Sir, I haven't really considered that 
problem. I don't consider the amount of money that's being 
spent out of bounds. I might quibble with how it's being spent 
but not the amount. It is not inconsistent with the amount of 
money that we were spending on my watch when it was mostly--a 
lot of it was R&D in any case. If you take into account 
inflation, I think it was $4.5 billion is what I recall in 
1991, 1992.
    Mr. Tierney. Do you support the allocation of national 
security resources, money primarily, according to sort of what 
the threat likelihoods are? Do you think we ought to make an 
assessment of what the likelihood of the threats are and then 
decide how to spend our money on that?
    Mr. Cooper. I do believe we should have threat-based design 
and development.
    Mr. Tierney. Would you agree that the bigger threat to the 
United States at this point in time is actually some asymmetric 
threat, some terrorist sending something over in a container or 
on a ship or being offshore on a small boat and lobbying 
something in from there?
    Mr. Cooper. As I indicated in my testimony, I am very 
worried about that. And that's how I spend most of my time 
these days, is worrying about nuclear smuggling out of the 
former Soviet Union.
    That said, I think the other is a serious problem. And the 
problem is, you can't turn a switch. I mean the complaint that 
people have about the Missile Defense Agency in some sense and 
the programs is how long this is taking and how much money it's 
costing. And it's a difficult problem. And no one I think 
disputes that fact. But I believe we need to be working on it.
    Mr. Tierney. I guess that's part of it, but the larger part 
of it is people are disputing the fact that we're buying before 
we're testing. I haven't heard anybody really come out and say, 
I don't want to spend the money on research and development. 
Maybe it's out there. But I hear some concern. But I think Mr. 
Coyle makes a point on that, that there's a lot of procurement 
going on. Maybe you'd like to expand on that, Dr. Coyle.
    Mr. Coyle. For all other U.S. military systems, we don't go 
into so-called full-rate production or large quantities of 
production until the system is shown to be operationally 
effective. It's a good policy. It helps the Congress know when 
it's time, when a system is ready. I think the same policy 
ought to apply to missile defense procurements, but so far, it 
hasn't.
    Mr. Tierney. Under that policy with respect to the 
intercontinental ballistic missile defense, the midcourse 
defense, what procurement is going on now would not be being 
made if we followed the policy?
    Mr. Coyle. Well, we wouldn't be buying the hundreds of 
interceptors that are proposed to be bought. In my testimony, 
based on my research, I counted 635 new interceptors proposed 
to be bought between now and 2013. General Obering said it's 
going to be twice that, that the JROC has recommended something 
like 1,200 new interceptors to be bought in that period. I 
wouldn't go forward with that.
    Mr. Tierney. Why not?
    Mr. Coyle. Because those interceptors have yet to 
demonstrate their capability to deal with realistic threats 
under realistic operational conditions.
    Mr. Tierney. And I think we talked about this a little bit 
at the last hearing. But what we're talking about demonstrating 
their capabilities. We're not talking about a one-off test 
where they hit it. I mean, each thing that you are testing, you 
probably need more than one successful test in order to get 
some level of comfortability that you have some confidence in 
the system. Is that correct?
    Mr. Coyle. Yes. But I don't think it's affordable to do 
what they would call statistically based testing where you do, 
you know, hundreds. I don't think that's something that you 
would want to spend money on. But you find out in realistic 
operational tests very quickly whether or not you've got a 
problem. If the first two or three that you do under these new 
conditions don't work, you don't have to do hundreds of tests 
to get statistical confidence about that. If the first two or 
three don't work, you know you've got a problem.
    Mr. Tierney. Did you hear anything in this morning's 
testimony that would change your mind about the statement you 
made in earlier testimony that it could take another 50 years 
before the operational realistic testing of this program is 
done?
    Mr. Coyle. No, I didn't. And in fact, I read the responses 
that the Missile Defense Agency wrote to my comment about that. 
And they didn't refute it. They just talked about something 
else.
    Mr. Tierney. OK.
    Mr. Cirincione. Mr. Chair, could I just add something to 
the test issue?
    Mr. Tierney. Sure.
    Mr. Cirincione. You have to remember that we're testing 
these or demonstrating these very differently than we had any, 
even antimissile systems of the past. The first time we 
deployed an antiballistic missile defense system, the Sprint 
Safeguard System in North Dakota, we had 111 tests of those 
interceptors before we deployed them, and these were real 
tests, shooting them. And we found some problems, and we 
corrected them. And by the time we fielded that system, at 
least they were technologically capable. We're not coming close 
to that level of testing with this system. As I recommended 
last time, I don't believe we should be deploying anything 
until we have a realistic test to see if we can intercept a 
missile that is deploying decoys that look the same as the 
warhead. And if we can't do that, I just don't see the point of 
deploying a system. You have my chart up there on the screen, 
what I did after our last testimony was do year-by-year 
calculations with my staff. And we found out that over the 
last--well, I guess 15 years there, we've got a steady decline 
in the number of long-range and intermediate-range and medium-
range ballistic missiles being deployed, but we're spending 
three times the amount on antimissile programs than we were 
during any period of the cold war. So, in other words, we used 
to spend about $4 billion a year. Now we're up to somewhere 
around $12 billion if everything's included. Even accounting 
for inflation, it's still twice as much. It just doesn't make 
sense.
    Mr. Tierney. So we're spending more on that than we are on 
the short range and medium range?
    Mr. Cirincione. This is our total missile budget now. So 
we're spending more now on antimissile defense than we were 
during any year of the cold war, not just--you know by a double 
or three times the amount during any period of the cold war, 
even while the threat has drastically been reduced.
    Mr. Tierney. Doctor, go ahead.
    Mr. Cooper. I'm pleased to take credit for some of that 
shrinkage. I spent 5 years in Geneva in talks in the Soviet 
Union. And that's the reason you are seeing the decay in long-
range missiles. That doesn't give me a great deal of comfort if 
I'm worried about North Korea and Iran. And let me say, I 
haven't forgotten about Russia and China either.
    Mr. Tierney. Except we're not targeting the MDA program 
against them.
    Mr. Cooper. Well, I understand that. But that doesn't give 
me a lot of confidence.
    Mr. Tierney. I understand that.
    Mr. Cooper. I'm concerned still about the accidental and 
unauthorized launch that I designed the system against 10 years 
ago. So, and I was thinking about Russian and Chinese missiles 
then. So I am for more effective capability than we're 
designing today in part for that reason.
    Mr. Tierney. OK. Thank you.
    Ms. McCollum, do you have any other questions?
    Ms. McCollum. Thank you, Mr. Chairman.
    Last week in the Senate Defense Appropriations 
Subcommittee, General Obering said, ``quite frankly, I'd like 
to see a missile race.''
    Mr. Cooper. I'm sorry?
    Ms. McCollum. General Obering in the Senate Defense 
Appropriations Subcommittee last week, there was discussion 
about a missile race between the United States and an adversary 
such as North Korea or Iran. And he said, ``frankly, I'd like 
to see such a missile race.'' I would like to know from you 
gentlemen if you think that would be a good thing. And that's 
kind of a--that's one question, but I do want to just go back 
and talk about some of the other things he said today in his 
testimony that I think goes with that.
    He said, without a program such as the missile defense 
program, the United States weakens its negotiation position in 
diplomatic talks if we don't have a program going. But there's 
a difference between a program and encouraging or being 
supportive of a full-blown escalation. So I'd be interested in 
hearing what you gentlemen would have to say about that. And he 
also went on to say that if we stop funding our program, our 
enemies will know our vulnerabilities, and they will attack us 
using ICBMs. So I'd like to get your perspectives kind of on 
some of the General's comments. And I think, you know, to take 
his logic a step farther, and this is me taking it a step 
farther, we're currently spending $100 billion each year, and 
we don't have a functioning long-range system. And the General, 
you know, said everything was on track on time, which I think 
we can all agree, in my opinion, it's not. So if we can spend 
$10 billion and maybe thwart our enemies, then what's to stop 
us from just saying, OK, we'll spend $50 billion or we'll spend 
$500 billion? That will even make us stronger against our 
enemies. So I'd like your reaction on some of the things that 
he said today, and if you're concerned about an escalation with 
a missile race.
    Mr. Cirincione. Let me start. I think General Obering's 
statement was the equivalent of ``bring it on.'' You might 
understand why someone would make a statement like that, ``I'd 
like to see a missile race.'' But I can't believe that in 
hindsight he doesn't regret those remarks. It's certainly not 
in the U.S. national security interest to see a missile race 
even between two countries, let alone the many countries that 
might join such a race. Two, that having an antimissile 
capability strengthens our negotiating leverage, that might be 
true. I don't see any evidence that it has factored into North 
Korean or Iranian thinking though. So I don't know how one 
could prove that statement. The North Koreans have had two 
failed tests of a medium- or intermediate-range missile, the 
Taepodong series, and they have stimulated with those two tests 
millions of dollars in U.S. expenditures. It might be that they 
think that they have the advantage here, that they are 
distracting us, but by their demonstration shots.
    The missile facility itself, even if we did continue the 
deployment of the Alaska system, this system is very, very 
vulnerable to asymmetrical responses. It's highly unlikely that 
a country like North Korea would simply shoot its missile off 
and wait to see if the United States could intercept it. They 
would do what any military force does in battle. You would 
suppress the enemy's defenses before you launch your attack. 
You would go out and knock out the eyes and ears of that 
system. You might send frogmen to blow up the radar or sink the 
floating radar. There are a half of dozen things one could 
think of that North Korea would do that have nothing to do with 
missiles or interceptors that might make this system completely 
ineffective before they were actually to launch it.
    No. 3 and finally, if the President is allowed to do what 
he wants to do and negotiate a deal with North Korea, I think 
we're going to see the North Korean missile threat disappear, 
the same way Ambassador Cooper helped negotiate a reduction in 
the Soviet missile and then Russian missile threat. I was just 
at a briefing last night by Sig Hecker, the former Director of 
Los Alamos, who came back from his fifth trip to North Korea, 
fairly optimistic about our possibilities of containing and 
eliminating both the nuclear program and the missile program. 
If we were able to do that, and we will know in another year or 
so, I don't see the point of what the Alaska deployment is. I 
would think, at that point, the Congress would be faced with 
the decision of whether they shut it down or not, and I would 
recommend shutting it down.
    Mr. Cooper. I'd like to, I think, speak for--or in support 
of General Obering's comments about the importance of having a 
serious missile defense program going and influencing the 
behavior of maybe North Korea and Iran. If we have a serious 
program that can frustrate or deal with what they're building, 
I mean, it's correct to say that it's a big deal to build long-
range ballistic missiles. I mean, that's a point that no one is 
going to dispute. On the other hand, it only took us 4\1/2\ 
years to do that the first time out you know 40 years ago. So 
you don't have a lot of time if you wait until the threat 
appears to build a defense. And that's no mean feat either.
    Working hard on missile defenses, the SDI program I believe 
is the reason for that reduction up there in the 1980's. I 
don't think there's much doubt of that. I saw it firsthand 
across the table from the Russians at the time. That's what got 
their attention. That's what got them to the negotiations. 
That's what kept them serious throughout. That's why Reagan 
walking out of Reykjavik was a turning point. Akhromeyev, who 
led the Soviet military, said as much to Vernon Walters at the 
time. So the fact that the United States was serious in trying 
to work this problem, very difficult problem that we all agree 
was there, I think was instrumental in supporting our arms 
control agenda and worth every penny of the SDI investment. And 
I believe the same thing would be true today if it were 
successful in supporting whatever it is you want to say, 
negotiations with North Korea and Iran to hold things back, to 
short-range missile, short and medium-range missiles. I don't 
think you can imagine though that success. I think you have to 
have a real program. I think it has to be directed toward real 
capability. And it has to show progress. And I do agree that it 
has to involve realistic testing to deter them in doing that. 
But you don't get it on the cheap. I don't believe you get it 
on the cheap.
    Mr. Tierney. Thank you, sir.
    Mr. Shays, you're recognized.
    Mr. Shays. Thank you. I'd like all three of you to respond 
to what Richard Garwin, a Democratic witness--excuse me--a 
witness that was opposed to the program and spoke of his fear 
of missiles launched from ships close to the shore. Is that a 
fear? And is there an antidote to it?
    Mr. Cooper. I'll start. Since I put that in my testimony, 
I'll go first.
    Mr. Shays. Since you what? I'm sorry.
    Mr. Cooper. I put it in my testimony. I do believe that is 
a serious problem. And it has been recognized to be a problem 
for a long time. Don Rumsfeld and his commission in 1998 
pointed it out. It's a little astounding to me that during his 
full tour and watch nothing was done about it. I believe that--
well, General Obering pointed out that we've launched missiles 
off of ships. Actually, we first did that in the 1960's as I 
recall. And I believe that Paul Wolfowitz testified that the 
Iranians had done that. So the idea that you can launch a 
missile off of a vessel is not novel.
    Mr. Shays. So, but it would strike me that--what I'm struck 
by, the fact--if that's the case, it makes any missile defense 
system seem to me even less beneficial because they pretty much 
get within the range of avoiding a missile defense system. So 
if you made that case, you are really saying--so there's two 
ways now that I'm thinking you can get through the system. One 
is with decoys, long range. And second, just bringing the ship 
in. That's, you know, that's in coming underneath. How would 
you respond to that?
    Mr. Cooper. I believe there is a defense against the threat 
of short-range missiles. In fact, it's the same defense that we 
use, in fact, against SCUDs. And the sea-based, the Aegis, has 
already demonstrated----
    Mr. Shays. What we would have to do in that case is we'd 
have to set up something off my property on Long Island Shore--
I mean, on Long Island, CT. I mean, that seems unrealistic. We 
wouldn't know where to position those missiles.
    Mr. Cooper. We have ships that are regularly, not on patrol 
but they're stationed in ports along both of our coasts. We 
have some 84 Aegis ships.
    Mr. Shays. But we wouldn't have the time notice to----
    Mr. Cooper. But they're there. My point to you is they're 
down at Norfolk right now, and their ships are around if they 
have the rounds onboard that can shoot down relatively short-
range missiles, and they can. They've demonstrated that. They 
have a success record of whatever it is, 12 or 14----
    Mr. Shays. I don't want to spend too much of my time on 
this. But I think you would agree that, you know, if you know 
that you have a threat and you preposition, but I can't imagine 
us prepositioning all along the coast of the Atlantic, the 
Caribbean, and the Pacific. I just can't, I can't envision----
    Mr. Cooper. I've looked at the footprints of this problem, 
and a couple of ships is what you need. And if they're moving 
periodically, as they do--I'm not suggesting we establish 
picket ships along the coastline. That would drive my Navy 
friends crazy.
    Mr. Shays. Let me hear from our other two witnesses.
    Mr. Coyle. Mr. Shays, Iraq actually demonstrated the 
capability that you're describing in Operation Iraqi Freedom, 
the beginning part of Operation Iraqi Freedom when they fired 
cruise missiles, low-flying cruise missiles that were developed 
for flying across the ocean, but the desert is pretty flat. And 
so they work just as well in the desert as they did in the 
ocean. Did they fire them from ships? No. They fired them from 
land, and our PATRIOT system did not intercept them. It's not 
designed to intercept them and doesn't have that capability. So 
Iraq demonstrated a good part of the threat that you are 
describing there. The only thing they didn't demonstrate was 
doing it from a boat. Now, hopefully, the Coast Guard would 
intercept that boat or somebody else would intercept it. But I 
think it's a genuine concern.
    Mr. Cirincione. Just very quickly, this is a very real 
problem. I think there's broad agreement on this. And it's not 
just SCUDs fired from tankers. It's cruise missiles fired, 
which would underfly most antimissile systems, even if one 
could figure out an operational footprint.
    We had a system called the Matador in the late-1950's early 
1960's that fired from a submarine. It was a really cool cruise 
missile. You can see it out at the Air and Space Museum out at 
Dulles. So if we could do it then, it's certainly within the 
range of many countries' capabilities now. I don't know how you 
defend against something like that.
    Mr. Cooper. One of the reasons I keep coming back to Aegis 
is the point of Aegis ballistic missile defense is to modify an 
air defense system that is deployed around the world. It can 
defend against cruise missiles and ballistic missiles. That's 
its forte.
    Mr. Shays. Let me just say that I just remember when Iraq 
went into Kuwait, some of the weapons systems we had, I was 
reminded by someone in Congress who said the systems that 
worked were developed 10 and 20 years ago. The systems you are 
voting on now, Congressman--he was saying this to me as a new 
Congressman--will have impact to some Congress 10 years and our 
military and our country 10 or 20 years later.
    So I do believe that we need to keep moving on this effort. 
But I sure as heck want to make sure we don't deploy until we 
know it works. And I am comforted to know that, on a short-
range basis, if we can anticipate an attack, it is an important 
element. And I think all three of you agree that we could have 
some success there.
    Mr. Cirincione. I think we can. I think we must. And I 
think that makes it all the more urgent that these short-term 
systems get the focus of the funding and the testing.
    Mr. Tierney. Thank you. I think those kind of questions, 
Mr. Shays, do help us to at least focus on what we need to 
focus and redirect the resources in some sense, which is, I 
guess, the underlying focus of these hearings to a large extent 
is that we don't have unlimited resources, and we do have some 
measure of risks and threats are more prevalent than others. 
And I'm not sure that we're doing a great job in the Department 
of Defense so far in aligning the resources that we have with 
the more prominent risks and accelerate them to the point that 
we should.
    I am just about done here. I don't know, Mr. Shays, if you 
have any other questions. There are a million more questions we 
could ask, and we could keep people here all day. I know Mr. 
Coyle has homework that he has taken on voluntarily.
    If either of you gentlemen wish to submit anything, we will 
certainly be more than happy to receive it and read it. There 
may be some that you want to respond to.
    Dr. Cooper, before we leave, you have had less time in 
front of us than the other two have. Is there anything else 
that you would like to add or contribute?
    Mr. Cooper. I appreciate the opportunity to be here. And 
I'm happy to be responsive in any way you wish as a follow on.
    Mr. Tierney. Thank you, sir, for that.
    Mr. Coyle, anything you would like to add?
    Mr. Coyle. No, thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    Mr. Cirincione.
    Mr. Cirincione. It's a pleasure to be back in front of my 
old committee. Godspeed.
    Mr. Tierney. Thank you all very much.
    Thank you, Mr. Shays.
    [Whereupon, at 1:33 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
